<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2016

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a non-profit, non-partisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the fiscal year 2016 budget request for the National 
Aeronautics and Space Administration (NASA), the National Oceanic and 
Atmospheric Administration (NOAA), and the National Science Foundation 
(NSF). The AGU, on behalf of its over 60,000 Earth and space scientist 
members, respectfully requests that the 114th Congress appropriate:
  --$18.91 billion overall for NASA, $5.51 billion for the Science 
        Mission Directorate;
  --$5.98 billion overall for NOAA; and
  --$7.72 billion overall for NSF.
              national aeronautics & space administration
    AGU requests that Congress appropriate $18.91 billion for NASA in 
fiscal year 2016. Additionally, AGU requests that Congress appropriate 
$5.51 billion for NASA's Science Mission Directorate. These increases 
represent a 5 percent increase over the fiscal year 2015 appropriated 
levels.
    Despite increases in appropriation, NASA's budget has fallen in 
real dollars by 10.5 percent since fiscal year 1995. Unless this 
pattern is reversed, NASA will cede its leadership in the Earth and 
space science missions and exploration that the U.S. has historically 
pioneered. A request of 5 percent allows NASA to grow above the rate of 
inflation.
    Within NASA's Science Mission Directorate, AGU requests that 
Congress set appropriations for the Earth, Planetary, and Heliophysics 
Divisions that are equitable and in harmony with their respective 
Decadal studies produced by the National Research Council.
Earth Science and Planetary Science Divisions
    Missions within NASA's Earth Science Division aid in flood 
prediction, earthquake response, and severe storm tracking. Greater 
knowledge and prediction skills are urgent when we consider the effort, 
time and costs of protecting infrastructure along coasts, rebuilding 
fish populations in our seas, developing new water resources for 
manufacturing and agriculture, and restoring communities in the wake of 
hazards. These observations, and many others like them, are integral 
and require the vantage point of outer space.
    NASA's Planetary Science Division advances our understanding of the 
solar system and inspires future generations of scientists. However, 
with no outer planet missions currently in early-stage development and 
barring any major funding increase, the U.S. will soon relinquish its 
presence beyond Mars.
    Both areas of science, Earth and planetary, are complementary. The 
study of the Earth system--Earth's interacting physical, chemical, and 
biological processes--informs our understanding of other worlds in the 
solar system, and our exploration of these bodies advance our knowledge 
of Earth's evolution.
Heliophysics Science Division
    Studying the sun and its interactions with Earth is crucial to 
increasing our knowledge of the dynamic solar processes that impact all 
life on our planet. This includes advance detection and warning of 
space weather events, such as solar storms, that have the potential to 
cause serious damage to our satellites, energy grid infrastructure, and 
the electronics we depend everyday. The request would ensure continued 
growth in NASA's work researching these and other interactions between 
the Sun and the Earth.
             national oceanic & atmospheric administration
    AGU requests that Congress appropriate $5.98 billion for NOAA in 
fiscal year 2016. This would be a 9.8 percent increase over the fiscal 
year 2015 appropriated level for NOAA.
    In our 21st century economy, it is vital that NOAA provide the data 
and insights on our environment that keep Americans safe and 
prosperous. NOAA's atmospheric and oceanic programs combine cutting-
edge research and world-class operational facilities to ensure that the 
U.S. is a resilient, weather-ready, and sustainable nation. Many 
sectors of our economy rely on the Agency's satellite programs to 
provide high quality, uninterrupted data for weather forecasts and on 
its oceanic program for insights on our environment and the 
sustainability of our coastal economies.
                      national science foundation
    AGU requests that Congress appropriate $7.72 billion for NSF in 
fiscal year 2016. This would be a 5.2 percent increase over the fiscal 
year 2015 appropriated level for NSF.
    The Foundation is critical to America's ability to compete globally 
in technological and scientific innovation. Faced with ever-increasing 
international competition, maintaining U.S. scientific leadership 
requires continued robust investments in basic research and STEM 
education. NSF is the only Federal agency that supports research and 
education across all fields of science, engineering, and mathematics 
and at all educational levels. Research and education programs 
supported by NSF help increase and develop the knowledge base needed 
for pushing the frontiers of science, mathematics, and engineering 
disciplines, contribute to the development of the future science and 
technology workforce, underpin new fields of inquiry, and promote 
interdisciplinary research and education. All of these facilitate 
technological innovation.
    Even under tight budget constraints, it is important for NSF to 
have steady budget levels that demonstrate real growth. Under constant 
2014 dollars, NSF has lost 5.8 percent of its budget from fiscal year 
2010 to fiscal year 2014. This stagnant pace of funding is creating an 
innovation deficit in the U.S.--a widening gap between the actual level 
of Federal Government funding for research and higher education and 
what the investment needs to be if the U.S. is to remain the world's 
innovation leader.
Geosciences Directorate
    The Geoscience Directorate awards research in the Earth, 
atmospheric, ocean, and polar sciences. Much of the geosciences 
research budget leads to a better understanding of critical national 
needs, such as water and mineral resources, energy resources, 
environmental issues, climate change, and mitigation of natural 
hazards. AGU asks the subcommittee to strongly support these programs.
    GEO supports infrastructure, operation, and maintenance costs for 
cutting edge facilities that are essential for fundamental and applied 
research. Geoscience-based research tools and academic expertise helped 
to track and contain the BP Deepwater Horizon oil spill, saving 
billions of dollars for Gulf industries and untold costs to the 
environment. Among the major infrastructure that NSF supports, the U.S. 
Arctic and Antarctic Facilities and Logistics, Academic Research Fleet, 
EarthScope Operations, Incorporated Research Institutions for 
Seismology (IRIS), the Ocean Drilling Program, the Ocean Observatories 
Initiative, and the National Center for Atmospheric Research are all 
key to our Nation's innovation and economic well-being. AGU strongly 
supports robust and steady funding for this infrastructure as well as 
operation and maintenance of these major facilities.
Earth Science Education
    The geosciences workforce is aging and being quickly depleted. 
Congress can grow this workforce, stimulate economic growth in the 
energy, natural resources and environmental sectors, and improve 
natural resource literacy by supporting the full integration of Earth 
science information into mainstream science education at the K-12 and 
higher education levels. AGU strongly supports the new NSF INCLUDES 
program (Inclusion Across the Nation of Communities of Learners that 
have been Underrepresented for Diversity in Engineering and Science), 
the Integrated NSF Support Promoting Interdisciplinary Research and 
Education program (INSPIRE), the Graduate Research Fellowships (GRF), 
and the Research Experiences for Undergraduates (REU), and the Faculty 
Early Career Development Program (CAREER). These programs are effective 
in building a science and engineering workforce for the 21st century 
that supports academia, industry, national defense, and Federal and 
local governments.
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the American Geosciences 
Institute's perspective on fiscal year 2016 appropriations for 
geoscience programs within the subcommittee's jurisdiction.
    The American Geosciences Institute (AGI) supports critical Earth 
Science research conducted by the National Science Foundation (NSF), 
the National Oceanic and Atmospheric Administration (NOAA), the 
National Institute of Standards and Technology (NIST), and the National 
Aeronautics and Space Administration (NASA). Cutting-edge research on 
the Earth, energy, and the environment has fueled economic growth, 
mitigated losses, and improved our quality of life. Our Nation needs 
skilled and innovative geoscientists to help explore, assess, and 
develop Earth's resources in a strategic, sustainable, and 
environmentally sound manner and to help understand, evaluate, and 
reduce our risks to hazards. AGI recognizes our Nation's financial 
challenges and also the necessity for steady growth and investment in 
science and technology for the future.
    AGI respectfully requests $1.372 billion for the Geoscience 
Directorate at NSF and $1.947 billion for NASA Earth Science programs. 
AGI supports the President's request for $5.982 billion for NOAA and 
$1.12 billion for NIST.
    AGI is a nonprofit federation of about 50 geoscientific and 
professional societies representing more than 250,000 geologists, 
geophysicists, and other Earth scientists. Founded in 1948, AGI 
provides information services to geoscientists, serves as a voice for 
shared interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role the geosciences play in society's use of resources, 
resilience to hazards, and the health of the environment.
                      national science foundation
    AGI supports the President's request for $7.724 billion for NSF.--
These important investments in the future of our Nation are the seed 
capital necessary to support the progress of science and engineering 
which underpins modern society and produces revolutionary--and some as 
yet unforeseen--breakthroughs. Basic research such as this provides 
knowledge that is used to improve people's quality of life, creates a 
dynamic and innovative economy, and strengthens the security of the 
country.
    NSF not only provides core funding and essential infrastructure for 
basic research, but also supports the education and training of the 
next generation of the workforce. AGI believes that investment in NSF 
programs, where research is funded based on competitive, scientific 
merit and peer review, will pay important dividends in maintaining U.S. 
dominance in science and technology long into the future.
    NSF Geosciences Directorate.--AGI is disappointed that the 
President's request for a 4.7 percent increase for the Geoscience 
Directorate (GEO) falls short of his NSF-wide request for a 5.2 percent 
increase, especially when GEO funding had already been cut in fiscal 
year 2015. AGI respectfully asks the subcommittee to provide the 
Geosciences Directorate with $1,372 million for fiscal year 2016 to 
keep the Directorate on par with the proposed NSF-wide increase of 5.2 
percent.
    The Geosciences Directorate (GEO) is the principal source of 
Federal support for academic Earth scientists and their students who 
seek to understand the Earth and the processes that sustain and 
transform life on this planet. The Geosciences Directorate provides 
about 61 percent of Federal funding for basic geoscience research at 
academic institutions. According to NSF data, the Directorate 
distributes about 1,600 new awards annually and expects about 15,900 
people to participate in GEO activities in fiscal year 2016, while also 
supporting indispensible research infrastructure and instruments.
    The GEO Directorate plays a significant role in NSF's cross-
foundational initiatives, such as the Innovations at the Nexus of Food, 
Energy, and Water Systems (INFEWS) and Prediction of and Resilience 
against Extreme Events (PREEVENTS) activities. These exciting projects 
integrate information from a range of disciplines to address pressing, 
socially-relevant issues. The geosciences play a large role in INFEWS, 
providing raw data and information on fossil, nuclear, and renewable 
energies; the quantity, quality, and distribution of water supplies; 
and the characteristics, health, and stability of soils and the 
critical zone where Earth, biological, and human systems intersect. 
Additionally, geohazards such as earthquakes and landslides are a 
significant component of PREEVENTS. This NSF-wide initiative has the 
potential to improve predictability and risk assessments associated 
with geohazards, which help build resilience to natural and manmade 
disasters. These investments in pre-disaster research and mitigation 
will provide an excellent return on investment, both in monetary and 
social terms. AGI supports funding of $14.78 million for INFEWS and 
$23.50 million for PREEVENTS in the Geoscience Directorate and 
particularly stress the importance of the Earth Science Division to 
this work.
    NSF's Division of Polar Programs (PLR) funds basic research in the 
Arctic and Antarctic and manages all U.S. activities in Antarctica as a 
single, integrated program. The polar regions are the focus of intense 
scientific and political interest as new navigation routes are opening 
access to resources and presenting security challenges. NSF-funded 
research and infrastructure are helping the United States understand 
environmental conditions in extreme environments, develop polar 
technology, and construct data-driven strategic and security policies. 
AGI suggests a minimum of $450 million for the Division of Polar 
Programs.
    NSF funds facilities that enable researchers to access locations, 
data, and technologies that serve the overall research community. AGI 
strongly supports robust and steady funding for infrastructure and the 
operation and maintenance of major facilities, including the Academic 
Research Fleet, Geodetic and Seismological Facilities for the 
Advancement of Geosciences and EarthScope (GAGE and SAGE), Ocean 
Drilling Activities, the Ocean Observatories Initiative, and the 
National Center for Atmospheric Research (NCAR).
    Directorate for Education and Human Resources.--Support for 
geoscience education within NSF not only helps us meet the demand for a 
competitive, skilled workforce, but also supports an informed citizenry 
prepared to make well-informed decisions about the management of our 
planet and its resources. Outreach and education are important at all 
levels from K-12 through graduate and should include formal and 
informal outlets to facilitate lifelong learning. AGI strongly supports 
funding for geoscience education at all levels and particularly 
supports programs to diversify the geoscience student population and 
workforce. The INCLUDES (Inclusion across the Nation of Communities of 
Learners that have been Underrepresented for Diversity in Engineering 
and Science) initiative should focus funds and attention on this 
important workforce issue. AGI urges Congress to fund programs in NSF's 
Directorate for Education and Human Resources, including NSF 
Scholarships in STEM, Graduate Research Fellowships, Climate Change 
Education, Research Experiences for Undergraduates, and Advancing 
Informal STEM Education.
            national oceanic and atmospheric administration
    Geoscientists rely on NOAA for much of the data and long-term 
monitoring that enable research and rapid response for events such as 
hurricanes, drought, marine oil spills, and a range of coastal 
phenomena. The National Weather Service (NWS), Oceanic and Atmospheric 
Research (OAS), National Ocean Service (NOS), and the National 
Environment Satellite, Data and Information Service (NESDIS) programs 
provide the data necessary for understanding and mitigating these 
events, as well as sustaining our natural resources. AGI supports the 
President's request for $5.982 billion for NOAA and hopes that the 
subcommittee will continue to support these crucial initiatives.
             national institute of standards and technology
    Earth scientists and geotechnical engineers versed in the 
geosciences conduct basic research at NIST that is used by the public 
and private sectors to build resilient communities and stimulate 
economic growth. The research conducted and the information gained is 
essential for understanding natural hazards, identifying the 
infrastructure needed to build strong communities, and stimulating 
economic growth. AGI strongly supports the President's request for 
$1.12 billion for NIST.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), an interagency program responsible for the 
efficient coordination of research and resources to understand and 
mitigate earthquakes, but has received only a small portion of 
authorized and essential funding in the past. AGI supports the 
reauthorization and funding of the National Earthquake Hazards 
Reduction Program (NEHRP) in this Congress.
             national aeronautics and space administration
    NASA's current fleet of Earth-observing satellites provides the 
data necessary to understand our dynamic planet. These satellites such 
as the Advanced Earth Observing Satellite and the Landsat series 
provide information critical to research and life-sustaining functions 
like weather forecasting, emergency service response and planning, and 
tracking ash plumes or oil spills that disrupt the economy and the 
environment. Geoscientists use Landsat data to monitor, predict, and 
help land managers to address drought, wildfires, changes in 
vegetation, and other changes to the Earth's surface. We strongly 
support the President's request for $1.947 billion for NASA Earth 
Science and the NASA/USGS Sustainability Land Imaging Architecture 
Study Team, which is examining options for continuing Landsat-
compatible observations into the future.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
         Universities' Board on Oceans, Atmosphere, and Climate
    On behalf of the Association of Public and Land-grant Universities' 
(APLU) Board on Oceans, Atmosphere, and Climate (BOAC), we thank you 
for the opportunity to provide recommendations for the proposed fiscal 
year 2016 budgets for the National Oceanic and Atmospheric 
Administration (NOAA), the National Aeronautic and Space Administration 
(NASA) and the National Science Foundation (NSF). BOAC represents 
hundreds of scientists and administrators at APLU's 238 member 
universities and systems. We support a budget of $80 million for NOAA's 
National Sea Grant College Program, $5.49 billion for NASA's Science 
Directorate and $7.7 billion for NSF. We also support a full 
restoration of all of NOAA, NASA, and NSF's STEM Programs.
    According to the National Climatic Data Center (NCDC), between 1980 
and 2013, there were 178 weather/climate disasters that each exceeded 
$1 billion in damages. Combined, they exceed $1 trillion in losses. The 
Federal Government spent nearly $140 billion on disasters in 2012 
alone. Further, the U.S. economy often takes a hit from disasters as 
well. The drought of 2012 likely cost the U.S. economy over $30 
billion. Additionally, the role of the Federal Government in covering 
many of these losses has grown tremendously over the last few decades. 
Erwann Michel-Kerwann, chairman of the OECD's Board on Financial 
Management of Catastrophes, noted that in 1989, Federal relief covered 
only 23 percent of total damage whereas Federal relief covered 69 
percent of Hurricane Ike in 2008 and 75 percent of Hurricane Sandy in 
2012.
    To decrease future Federal expenditures and to make the Nation more 
prepared for natural disasters, Federal agencies are working with 
communities across the Nation to enhance their resilience. Community 
resilience is a measure of the ability of a community to prepare for, 
respond to, and fully bounce back from a variety of crises. Through 
research, Federal science agencies can play a valuable role in helping 
communities strengthen their resilience.
            national oceanic and atmospheric administration
    Within the administration's fiscal year 2016 budget proposal, there 
is a proposal to increase the Regional Coastal Resilience Grants 
program by $45 million to ``(1) increase the resilience of coastal 
communities and ecosystems by assisting with planning for and 
addressing extreme weather events, coastal inundation, climate hazards, 
changing ocean conditions, and competing uses; and (2) to support 
regional approaches that leverage existing resources and efforts and 
promote collaboration across jurisdictions and sectors.'' This proposal 
nearly mirrors the National Sea Grant College Program's goals to (1) 
develop vibrant and resilient coastal economies; (2) aid communities in 
using comprehensive planning to make informed strategic decisions; (3) 
improve coastal water resources to sustain human health and ecosystem 
services; and (4) to help resilient coastal communities adapt to the 
impacts of hazards and coastal changes.
    Thus, while we applaud and support the administration's attention 
to coastal resilience, we suggest that the National Oceanic and 
Atmospheric Administration (NOAA) capitalize on the capacity that 
exists in the Sea Grant Program to add value to this initiative. Sea 
Grant would strengthen the research and education component of this 
resiliency effort. Furthermore, as required by law, each dollar Sea 
Grant receives in Federal funding must be matched at the State level. 
Finally, Sea Grant is local; it provides NOAA with boots on the ground 
throughout the country's coastal areas. Sea Grant personnel hear 
directly from community members about their needs and work directly 
with communities to provide technical assistance. We provide below two 
examples of the type of work Sea Grant has done related to community 
resiliency.
    Sea Grant has a proven track record with regard to coastal 
community resilience work. For example, the Mississippi-Alabama Sea 
Grant Consortium developed the Coastal Community Resilience Index 
(CCRI), a community self-assessment tool, in response to community 
requests for baseline data they could use to assess how they are 
progressing toward their goals to become more resilient. Using this 
tool, communities can identify vulnerabilities and prepare for future 
natural disasters. So far, 47 communities across the Gulf of Mexico, 
working along with 74 facilitators, have utilized the tool to determine 
their base resilience. A small grants program then provides individual 
communities financial resources needed to address action items 
identified by the CCRI.
    Sea Grant Programs also target the individual homeowners in coastal 
communities. For instance, the University of Hawai'i Sea Grant produced 
a community specific Homeowner's Handbook to Prepare for Natural 
Hazards. Using non-technical language, the book offers homeowners step-
by-step instructions for hazard preparation along with education on the 
hazard risk in their area. This book has proven so popular it has gone 
through 8 print runs and has now been adapted to Alabama, Delaware, 
Florida, Louisiana, Massachusetts, Mississippi, and Texas.
    Based on the examples given, we encourage the subcommittee to fund 
Sea Grant at $80 million, allowing the Program to then be heavily 
utilized in NOAA's resiliency efforts.
    Underlying all of the programs above are the skilled scientists, 
educators, and community engagement specialists in academia, non-
profits, industry and State, local, and Federal Government that 
actually perform the work. The continuity and durability of that 
workforce relies on strong educational programs that recruit, mentor, 
and develop the necessary human capacity. The administration's budget 
calls for the elimination of several important STEM programs at NOAA 
that contribute to the development of a workforce with the skills and 
expertise needed in our 21st century economy.
    NOAA's Fisheries Sea Grant Fellowship encourages students to pursue 
careers in population and ecosystem dynamics or marine resource 
economics, areas vital to NOAA's management of the Nation's fisheries. 
The NOAA Teach at Sea Program permits K-12 teachers the opportunity to 
experience hands-on, real world research on NOAA's fisheries, 
oceanographic, or hydrographic survey cruises. This allows those 
teachers to enrich their curricula and enhance their approaches to 
teaching science. Finally, it is not enough in today's complex world to 
know only the technical aspects of one's science discipline, but also 
to hone professional skills needed to become tomorrow's leaders. The 
John A. Knauss Marine Policy Fellowship provides exactly that type of 
training.
    BOAC strongly encourages the subcommittee to restore funding for 
all the NOAA STEM programs.
                      national science foundation
    BOAC supports the administration's request of $7.7 billion for the 
National Science Foundation (NSF). NSF provides 61 percent of 
geoscience basic research funding, including support for critical 
infrastructure such as the National Center for Atmospheric Research--
Wyoming Supercomputing Center, the Academic Research Fleet, and the 
Ocean Observatories. Additionally, NSF is the home of traditionally 
strong STEM education programs.
    BOAC supports the budget request for NSF's geosciences directorate. 
NSF's investments in the geosciences address important national 
challenges, spur new economic sectors, and lead to the development and 
implementation of advanced technologies that save lives, protect 
property, and support our economy. BOAC also supports the NSF's 
creation of the focused research effort called Prevention of and 
Resilience against Extreme Events (PREEVENTS), the purpose of which is 
to enhance national resilience to natural hazards. Like the Hazards 
SEES (Science, Engineering, and Education for Sustainability) before 
it, PREEVENTS will improve quantitative models and qualitative research 
that should aid societal preparedness and resilience. In particular, 
PREEVENTS will promote disciplinary and multidisciplinary projects for 
significant near- or medium-term advances.
    BOAC is also pleased to see NSF expand research into Innovations at 
the Nexus of Food, Energy, and Water Systems (INFEWS). In its ``Science 
Education and Outreach Roadmap for Natural Resources,'' APLU's BOAC and 
its Board on Natural Resources identified six major grand challenges 
facing the Nation's natural resources, three of which are agriculture, 
energy, and water. There are many examples of where these three come 
into play with one another. The drought in California affects not only 
California's enormous agricultural system but also the State's 
production of hydroelectricity. Many of the Nation's important 
waterways face problems with eutrophication from nutrient runoff from 
intensive agricultural production.
             national aeronautics and space administration
    Like NOAA & NSF, the National Aeronautics and Space Administration 
(NASA) is critical to community resilience, both for developing an 
understanding of the earth and how it functions as well as collection 
of the data scientists use to help aid decision-makers.
    In 2007, the National Academies issued the report, ``Earth and 
Science Applications from Space: National Imperatives for the Next 
Decade and Beyond.'' The report found that between 2000 and 2009 
funding for Earth Sciences (ES) had fallen substantially. Past 
investments in NASA's science mission have funded university research 
that has resulted in the development of new instruments and 
technologies and in valuable advances in weather forecasting, climate 
projections and understanding of Earth ecosystems.
    NASA is instrumental in deploying satellites used by NOAA. 
Furthermore, without the tools developed at NASA, oceanic, atmospheric, 
hydrologic and Earth-system scientists and the Nation would have only a 
fragmentary picture of the interconnected functioning of the planet's 
oceans, atmosphere and land. NASA plays a role in technology transfer 
from NOAA by testing new sensors. NASA is currently developing a sensor 
that will for the first time give scientists and resource planners a 
global picture of the world's terrestrial water supplies. Currently 
many lakes and rivers are not monitored and there is no centralized 
location for water resource information. The NASA data archive is an 
irreplaceable collection of environmental information that researchers 
depend upon. NASA also flies the WB-57 high altitude research aircraft, 
which performs valuable atmospheric research missions including remote 
sensing for coastal resiliency and the study of hurricane formation and 
intensity change. Furthermore, through its support for young scientists 
and graduate students, the NASA science mission supports innovation in 
the education and future workforce pipeline.
    Finally, we support funding NASA to develop and implement a 
scatterometer mission with fast community access to those data, 
capability to distinguish between wind and rain and a higher orbit for 
coverage of Alaskan waters. The scatterometer has been a critical 
component of hurricane prediction.
    BOAC thanks you for the opportunity to provide our views to the 
subcommittee. We look forward to working with you through the fiscal 
year 2016 appropriations process.
             about aplu and the board on natural resources
    APLU's membership consists of 238 State universities, land-grant 
universities, State-university systems and related organizations. APLU 
institutions enroll more than 4.8 million undergraduate students and 
1.3 million graduate students, award 1.2 million degrees, and conduct 
$41 billion annually in university-based research annually. The Board's 
mission is to provide Federal relations for issues involving 
university-based programs in marine, atmospheric, and climatological 
sciences. BOAC representatives are chosen by their president's office 
to serve. They include some of the Nation's leading research and 
educational expertise in atmospheric, marine, and climate disciplines.
                                 ______
                                 
  Prepared Statement of the Association of Science-Technology Centers
                              introduction
    Chairman Shelby, Ranking Member Mikulski, and members of the 
subcommittee, thank you for the opportunity to submit written testimony 
for the record. My name is Anthony (Bud) Rock, and I serve as the 
President and Chief Executive Officer of the Association of Science-
Technology Centers (ASTC). My testimony today addresses the importance 
of science, technology, engineering, and mathematics (STEM) education, 
and will focus specifically on the fiscal year 2016 budgets for four 
specific programs at three Federal agencies over which your 
subcommittee has jurisdiction, including: (1) the Competitive Program 
for Science Museums, Planetariums, and NASA Visitor Centers Plus Other 
Opportunities (CP4SMP+) at the National Aeronautics and Space 
Administration (NASA),which would not be funded under the President's 
fiscal year 2016 request; the Bay-Watershed Education and Training (B-
WET) Regional Programs and Competitive Education Grants (CEG)/
Environmental Literacy Grants (ELG) programs at the National Oceanic 
and Atmospheric Administration (NOAA), which would not be funded under 
the President's fiscal year 2016 request; and the Advancing Informal 
STEM Learning (AISL) program at the National Science Foundation (NSF), 
which would receive $60 million under the President's fiscal year 2016 
request.
                              our request
    On behalf of ASTC and the nearly 400 science centers and museums we 
represent here in the United States, I urge the subcommittee to 
continue its strong support for critical STEM education programs within 
NASA, NOAA, and NSF as the Commerce, Justice, Science, and Related 
Agencies appropriations bill for fiscal year 2016 moves forward. 
Specifically, I urge you to:
  --Provide $10 million for the Competitive Program for Science 
        Museums, Planetariums, and NASA Visitor Centers Plus Other 
        Opportunities at the National Aeronautics and Space 
        Administration.
  --Provide $12 million for the Bay-Watershed Education and Training 
        Regional Programs and $8 million for the Competitive Education 
        Grants/Environmental Literacy Grants programs at the National 
        Oceanic and Atmospheric Administration.
  --Provide $60 million for the Advancing Informal STEM Learning 
        program at the National Science Foundation.
  --Continue to thoroughly examine any proposals that would seek to 
        consolidate and/or reorganize Federal STEM education programs 
        in an effort to ensure that stakeholder input has been sought 
        and that proven, successful programs are maintained.
    Before providing more detail about ASTC and the science center and 
museum field, I want to first offer a brief snapshot of these Federal 
programs and why they are so vital to communities across the country.
             national aeronautics and space administration
    NASA's Competitive Program for Science Museums, Planetariums, and 
NASA Visitor Centers Plus Other Opportunities provides support for 
education or research engagement projects, exhibits, and/or 
partnerships with K-12 schools to support inquiry- or experiential-
based activities led by informal education institutions--like science 
centers and museums--that feature NASA missions, science, engineering, 
explorations, or technologies.
    With fiscal year 2014 funding, NASA awarded funding to 12 projects, 
including three NASA Visitor Centers. Three Maryland-based 
institutions--the Maryland Science Center, the Prince George's County 
Public Schools' Howard B. Owens Science Center, and the Goddard Space 
Flight Center--collaborated on a proposal and are receiving support to 
make educators, students, families, and the public more aware and 
better informed of NASA heliophysics science and NASA missions studying 
the Sun. Program participants will come to a better understanding of 
the Sun, space weather, and the Sun's far-reaching influence on our 
planet and the rest of the solar system.
    Though Congress--and this subcommittee--have been very supportive 
of this program since its inception in fiscal year 2008, the agency has 
not indicated if any fiscal year 2015 funds will be available for new 
grants. Furthermore, the President did not include funding for the 
program in his fiscal year 2016 budget request. I encourage the 
subcommittee to continue its strong support for the CP4SMP+ by 
providing $10 million for fiscal year 2016.
            national oceanic and atmospheric administration
    NOAA's Bay-Watershed Education and Training Regional Programs are 
environmental education offerings that promote locally relevant, 
experiential learning in the K-12 environment. The program, which 
currently serves seven areas of the country (California, the Chesapeake 
Bay, the Great Lakes, the Gulf of Mexico, Hawai'i, New England, and the 
Pacific Northwest), promotes environmental literacy in society by 
supporting individuals to understand, protect, and restore watersheds 
and related ecosystems. With fiscal year 2015 funding for 86 new and 
continuing awards, B-WET grants will reach an estimated 69,000 students 
and 2,600 teachers.
    NOAA's Competitive Education Grants/Environmental Literacy Grants 
program, which the agency touts as ``the longest-standing and most 
comprehensive national grants program focused on environmental 
literacy,'' helps improve and increase the understanding and use of 
earth systems science while advancing STEM education. Since its 
beginnings in 2005, NOAA has made 111 awards to over 150 institutions 
across the country--all of which help advance its mission. The agency 
estimates that each year, an average of 60 million people visit an 
institution--like a science center or museum--that has a NOAA-funded 
exhibit or program.
    Despite this measurable impact, the President's fiscal year 2016 
budget request once again proposes the termination of both the B-WET 
and the CEG/ELG programs, which received $7.2 million and $4 million, 
respectively, for fiscal year 2015. For fiscal year 2016, I urge the 
subcommittee to remain supportive of the programs by providing $12 
million in funding for B-WET and $8 million in funding for CEG/ELG.
                      national science foundation
    Fiscal year 2016 funding for the Advancing Informal STEM Learning 
program, offered by the Directorate for Education and Human Resources 
and the Division of Research on Learning in Formal and Informal 
Settings, will provide resources to support design, adaptation, 
implementation, and research on innovative modes of learning in the 
informal environment, with important emphases on citizen science, 
making, and cyberlearning. Just last year, new awards were made to the 
University of Alaska-Fairbanks (in partnership with the Oregon Museum 
of Science and Industry), the University of Maryland Center for 
Environmental Sciences, the University of Wisconsin-Madison, and the 
University of New Hampshire, to name just a few.
    The President's fiscal year 2016 budget request includes $60 
million--$5 million more than the fiscal year 2015 appropriated level--
for AISL. I encourage the subcommittee to support the President's 
request.
            stem education consolidation and reorganization
    With regard to the Federal STEM education consolidation plan first 
released by the administration for fiscal year 2014 and amended in each 
of the last two budget requests, I recognize the importance of creating 
efficiencies within the Federal Government whenever possible. 
Nevertheless, I continue to have serious concerns about a proposal that 
would eliminate effective programs that support informal STEM learning. 
Integral Federal investments, including the aforementioned NASA and 
NOAA offerings, are once again slated for elimination in fiscal year 
2016. I sincerely appreciate the subcommittee's thoughtful 
consideration of the harmful effect of the proposed terminations, and 
ask you to remain steadfast in your support of these programs.
                     about astc and science centers
    The Association of Science-Technology Centers is a global 
organization providing collective voice, professional support, and 
programming opportunities for science centers, museums, and related 
institutions, whose innovative approaches to science learning inspire 
people of all ages about the wonders and the meaning of science in 
their lives. Science centers are sites for informal learning, and are 
places to discover, explore, and test ideas about science, technology, 
engineering, mathematics, health, and the environment. They feature 
interactive exhibits, hands-on science experiences for children, 
professional development opportunities for teachers, and educational 
programs for adults. In science centers, visitors become adventurous 
explorers who together discover answers to the myriad questions of how 
the world works--and why. As members of this subcommittee know, it is 
imperative that we spark an interest in STEM fields at an early age--a 
key role for community-based science centers and museums, who often 
undertake this effort with the aforementioned modest--but important--
support from NASA, NOAA, and NSF, in addition to other Federal 
agencies.
    ASTC works with science centers and museums to address critical 
societal issues, locally and globally, where understanding of and 
engagement with science are essential. As liaisons between the science 
community and the public, science centers are ideally positioned to 
heighten awareness of critical issues like agriculture, energy, the 
environment, infectious diseases, and space; increase understanding 
of--and exposure to--important and exciting new technologies; and 
promote meaningful exchange and debate between scientists and local 
communities.
    ASTC now counts 636 members, including 489 operating or developing 
science centers and museums in 45 countries. Collectively, our 
institutions garner 95 million visits worldwide each year. Here in the 
United States alone, our guests--and your constituents--pass through 
science center doors more than 73 million times to participate in 
intriguing educational science activities and explorations of 
scientific phenomena.
    Science centers come in all shapes and sizes, from larger 
institutions in big metropolitan areas to smaller centers in somewhat 
less populated ones. ASTC represents institutions as diverse as the 
Adventure Science Center in Nashville; the Anchorage Museum at Rasmuson 
Center; the Connecticut Science Center; the Echo Lake Aquarium and 
Science Center in Burlington, Vermont; the Maine Discovery Museum in 
Bangor; the McWane Science Center in Birmingham; the Museum of 
Discovery in Little Rock; and the Providence Children's Museum.
    Our centers reach a wide audience, a significant portion of which 
are school groups. Here in the United States, 94 percent of our members 
offer school field trips, and we estimate that more than 13 million 
children attend science centers and museums as part of those groups 
each year. Field trips, however, are truly just the beginning of what 
science centers and museums contribute to our country's educational 
infrastructure, as: 92 percent offer classes and demonstrations; 90 
percent offer school outreach programs; 76 percent offer workshops or 
institutes for teachers; 74 percent offer programs for home-schoolers; 
67 percent offer programs that target adult audiences; 65 percent offer 
curriculum materials; 50 percent offer after-school programs; 34 
percent offer youth employment programs; and 22 percent offer citizen 
science projects.
                               conclusion
    With this in mind, and while I am fully aware of the significant 
budget challenges that face this subcommittee, Congress, and the 
Nation, I hope you will continue to recognize the important educational 
offerings science centers and museums make available to students, 
families, and teachers, along with the essential Federal support they 
receive from NASA, NOAA, and NSF.
    Again, I respectfully request and urge you to:
  --Provide $10 million for the Competitive Program for Science 
        Museums, Planetariums, and NASA Visitor Centers Plus Other 
        Opportunities at the National Aeronautics and Space 
        Administration.
  --Provide $12 million for the Bay-Watershed Education and Training 
        Regional Programs and $8 million for the Competitive Education 
        Grants/Environmental Literacy Grants program at the National 
        Oceanic and Atmospheric Administration.
  --Provide $60 million for the Advancing Informal STEM Learning 
        program at the National Science Foundation.
  --Continue to closely examine any proposals that would seek to 
        consolidate and/or reorganize Federal STEM education programs 
        in an effort to ensure that stakeholder input has been sought 
        and that proven, successful programs are maintained.
    Thank you once again for your strong support for America's science 
centers and museums--and for the opportunity to present these views. My 
staff and I would be happy to respond to any questions or provide 
additional information as needed by the subcommittee.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
            national oceanic and atmospheric administration
    Thank you Chairman Shelby and Ranking Member Mikulski for allowing 
me to submit testimony on behalf of the Nation's 214 AZA-accredited 
zoos and aquariums. Specifically, I want to express my support for the 
inclusion of $4 million for the John H. Prescott Marine Mammal Rescue 
Assistance Grant Program, $8,000,000 for the National Oceanic and 
Atmospheric Administration (NOAA) Environmental Literacy Grants Program 
(including $2,500,000 for the NOAA Ocean Education Grants Program), and 
$12,000,000 for the Bay, Watershed, Education and Training Program in 
the fiscal year 2016 Commerce, Justice, Science, and Related Agencies 
appropriations bill. Additionally, I urge you to reject any proposal 
that eliminate valuable ocean education programs as part of a plan to 
restructure Federal Science, Technology, Engineering, and Math (STEM) 
programs.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. AZA-accredited zoos and aquariums annually see more than 
180 million visitors, collectively generate more than $17 billion in 
annual economic activity, and support more than 165,000 jobs across the 
country. Over the last 5 years, AZA-accredited institutions supported 
more than 4,000 field conservation and research projects with 
$160,000,000 annually in more than 100 countries. In the last 10 years, 
accredited zoos and aquariums formally trained more than 400,000 
teachers, supporting science curricula with effective teaching 
materials and hands-on opportunities. School field trips annually 
connect more than 12,000,000 students with the natural world.
    During the past 20 years AZA-accredited zoos and aquariums have 
rescued and rehabilitated more than 1,800 marine animals including 
stranded dolphins, whales, sea lions, seals, sea otters, sea turtles, 
and manatees. More than 1,750 (97 percent) of these animals have been 
successfully released back into their natural habitat. While the 
Nations' accredited zoos and aquariums support wildlife rehabilitation 
through their ongoing animal rescue programs, these institutions are 
sometimes involved in addressing natural and manmade disasters such as 
the 2010 Deepwater Horizon Gulf oil spill. For example, following the 
oil spill, accredited zoos and aquariums around the country offered 
assistance by pledging the services of 200 animal care professionals 
and donating supplies, vehicles, and other resources to assist in the 
wildlife rescue efforts.
    The John H. Prescott Marine Mammal Rescue Assistance Grant Program 
provides grants or cooperative agreements to eligible stranding network 
participants for the recovery and treatment (i.e., rehabilitation) of 
stranded marine mammals; data collection from living or dead stranded 
marine mammals; and, facility upgrades, operation costs, and staffing 
needs directly related to the recovery and treatment of stranded marine 
mammals and collection of data from living or dead stranded marine 
mammals. Eligible applicants are currently active, authorized 
participants, including AZA-accredited zoos and aquariums, or 
researchers in the National Marine Mammal Stranding Network.
    Without the Prescott grant program, NOAA would have to rely on 
private organizations as it coordinates the response to marine mammals 
in distress; determines disease, injury and potential cause(s) of 
death; and supports emergency response for marine mammals during oil 
spills, outbreaks of diseases, and unusual mortality events. Network 
partners may not have the funds or the ability to respond to some 
stranding events, leaving animals at risk for prolonged exposure and 
likely death. Without funding for this program the critical ability to 
monitor marine mammal health trends, collect scientific data, and 
perform analysis would also be diminished. Information about the causes 
of marine mammal strandings is useful to the public because marine 
mammals can serve as an indicator of ocean health, giving insight into 
larger environmental issues that also have implications for human 
health and welfare.
    At the same time that AZA-accredited zoos and aquariums are working 
with Federal partners to conserve ocean wildlife, they also are 
providing essential learning opportunities, particularly about science, 
for schoolchildren in formal and informal settings. Increasing access 
to formal and informal science education opportunities has never been 
more important. Studies have shown that American schoolchildren are 
lagging behind their international peers in certain subjects including 
science and math.
    The NOAA Ocean Education Grants Program and Bay, Watershed, 
Education and Training Program bring students closer to science by 
providing them with the opportunity to learn firsthand about our 
world's marine resources. Through these grant programs, aquariums work 
closely with Federal, State, and local partners on projects with long-
lasting benefits not only for the students but their communities as 
well. For example, previous projects funded by NOAA Ocean Education 
Grants at AZA aquariums have focused on establishing a regional network 
of summer camp programs grounded in ocean science, enhancing teen 
conservation leadership programs, and conserving and managing coastal 
and marine resources to meet our Nation's economic, social and 
environmental needs. As schools face increased budgetary pressures, 
these types of education programs at aquariums will become even more 
important in ensuring that American schoolchildren receive the 
necessary foundation in science education that they will need to be 
competitive in the 21st century global economy.
    AZA-accredited zoos and aquariums are essential partners at the 
Federal, State, and local levels to improve education for 
schoolchildren and ensure that current and future generations will be 
good stewards of the world's oceans. Therefore, I urge you to include 
$4 million for the John H. Prescott Marine Mammal Rescue Assistance 
Grant Program, $8,000,000 for the NOAA Environmental Literacy Grants 
Program (including $2,500,000 for the NOAA Ocean Education Grants 
Program), and $12,000,000 for the Bay, Watershed, Education and 
Training Program in the fiscal year 2016 Commerce, Justice, Science, 
and Related Agencies appropriations bill.
    Thank you.
                                 ______
                                 
       Prepared Statement of the Consortium for Ocean Leadership
    On behalf of the Consortium for Ocean Leadership, I appreciate the 
opportunity to discuss the fiscal year 2016 Federal science budget for 
the National Science Foundation (NSF), the National Oceanic and 
Atmospheric Administration (NOAA) and the National Aeronautics and 
Space Administration (NASA). Ocean Leadership represents 89 of the 
Nation's leading oceanographic research and education institutions with 
the mission to shape the future of ocean sciences. We respectfully 
request the subcommittee provide no less than $7.72 billion for the 
NSF; $1.95 billion for Earth Sciences at NASA; and $6 billion for NOAA. 
These funds will help maintain U.S. global leadership in ocean science 
and technology, which is critical to American agriculture, energy 
development, a changing Arctic, ocean exploration and a healthy U.S. 
scientific workforce.
          ocean forecasts are critical to american agriculture
    The ocean drives global water and weather systems through the 
absorption, retention and transportation of vast amounts of the Earth's 
heat, water and carbon dioxide. Thanks to the longstanding bipartisan 
support of this subcommittee, our Nation has been well positioned to 
lead the world in innovation while also effectively and efficiently 
incorporating environmental data into marketplace. For example, the 
support of this committee enabled NOAA to better service the buoys 
comprising the TAO Array (Tropical Atmosphere Ocean project in the 
equatorial Pacific), which had degraded significantly and is critical 
for seasonal weather predictions.
    One of the most important influences on weather variation is 
derived from El Nino Southern Oscillation, or ENSO, which is a coupled 
atmosphere-ocean oscillation that impacts atmosphere and ocean 
circulation patterns across the equatorial Pacific. A rise in sea 
surface temperatures in the eastern tropical Pacific and an eastward 
shift in the convection in the western Pacific typically characterizes 
an El Nino event, which causes major seasonal temperature and 
precipitation changes around the world, including changes in rainfall 
over much of America's most productive croplands. Consequently, 
commodity strategists incorporate predictions of El Nino events into 
commodity prices months and in some cases up to a year in advance. Last 
year, experts predicted that there would up to an 80 percent chance of 
an El Nino occurring, which led to increased prices for commodities 
such as coffee and cocoa. Yet, while sea surface waters rose in the 
equatorial Pacific, the trade winds never materialized and El Nino 
didn't arrive as predicted. Consequently, the drought-stricken west 
didn't experience the higher rainfalls expected during El Nino events. 
Such information is vital not only for the agriculture industry but 
also the insurance industry, the energy sector, and national security 
as civil unrest can occur overseas when crops fail, fresh water is in 
short supply, or floods displace populations.
    ENSO isn't the only ocean-atmosphere factor in predicting weather. 
There are other natural variations, including the North Atlantic/Arctic 
Oscillation, which is related to the Polar Vortex and mainly influences 
the temperature and precipitation in the eastern half of the United 
States. The Pacific Decadal Oscillation interacts with ENSO to 
influence weather in the western United States. However, today's 
predictive models have not matured enough to forecast these 
oscillations nearly as well as we have been predicting ENSO. With the 
unrealized El Nino prediction of 2014, clearly we still have a ways to 
go in improving models on seasonal timescales, which is essential for 
agriculture and energy preparation as well as preparing for drought and 
flooding. While the TAO array has been very helpful for ENSO 
predictions, so much of the global ocean is not yet measured, 
especially the surface meteorology and air-sea fluxes. Satellite 
observations are essential as they give us a global view and are 
advancing with new salinity sensors and improved altimetry. Yet, we are 
faced with potential data gaps in our polar orbiting satellites that 
provide critical data for weather forecasts. To truly become a weather 
ready nation, we need sustained ocean observations, both from space as 
well as in situ, particularly at depth.
    marine robotics and ocean vehicles essential to u.s. technology 
                               leadership
    Investment in basic technology research for the geosciences has 
spurred the growth of marine robotics, which like the transition from 
sail to steam power, is ushering in a new chapter in ocean observation 
and monitoring. Autonomous underwater robotic systems open the door for 
routine and persistent access to the deep ocean, allowing the expansion 
of commercial activities that include offshore oil and gas exploration, 
undersea mining, aquaculture, and installation of marine wind and wave 
energy facilities and submarine communication cables. Thus far marine 
robotic systems have been tied to ships, but newer systems are able to 
operate independently, providing broader and more long-term access for 
baseline environmental assessments and observing and for equipment 
monitoring and maintenance, reducing shipping and permitting costs and 
greatly improving hazards response management. At one time, U.S. 
oceanographic institutions were among the few organizations in the 
world that could build and operate deep ROVs. Now these vehicles are 
used by the entire oceanographic community for a variety of uses 
including offshore energy production. Hydroid Inc., Teledyne Webb 
Research, and Bluefin Robotics are three highly successful job-creating 
companies that spun off from academic research laboratories (Woods Hole 
Oceanographic Institution and MIT). Together, these three companies 
dominate worldwide production of autonomous underwater vehicles, with 
deployed systems projected to grow by 42 percent over the next 4 years 
(Douglas-Westwood study).
    Researchers at Oregon State University are outfitting undersea 
gliders with acoustic sensors to identify biological ``hot spots'' in 
the coastal ocean. These new smart gliders will be able to identify 
different kinds of marine animals using their unique acoustical 
signatures, which will ultimately benefit the fishing industry and 
resource managers. The geosciences directorate at NSF needs to be a 
priority if it is going to continue to support the basic research 
required to develop the next generation vehicles and sensors in what is 
becoming a globally competitive marketplace.
             maintaining u.s. global posture in the arctic
    The United States is an Arctic nation, where significant economic, 
social and national security interests intersect. The Arctic harbors 
tremendous natural resources, thriving and productive ecosystems, and 
is increasingly becoming an international focus for expanded navigation 
and commerce. Yet, in many places, the seafloor is virtually uncharted 
and the water column is essentially unknown. We are already observing a 
rise in commercial activity in the Arctic in terms of shipping, fishing 
and oil and gas exploration, which could eventually lead to boundary 
disputes among nations or accidents that require search and rescue or 
oil spill response. Put simply, the United States is not yet prepared 
to respond to an accident or serious incident in the Arctic. And it's 
not just the cargo ships that are traversing the Arctic, as there are 
also marine species that are making their way between the Pacific and 
Atlantic for the first time in millennia, which may have negative 
ecological implications as invasive species. Because of its high 
latitude, effects of a rapidly changing climate are amplified. Climate 
projections for the Arctic region depend on knowing the state and 
circulation of the Arctic Ocean, yet ocean-ice interactions are poorly 
understood. Furthermore, the Arctic basin is insufficiently mapped and 
instrumented for real-time observations, and there is a need for 
improved integration of observations into models to produce reliable 
projections.
    As ice cover decreases in this part of the world, ocean warming 
will accelerate because ice reflects 90 percent of solar radiation and 
the oceans absorb 90 percent. The result will be an increase in sea 
level, release of methane gasses that could further contribute to 
climate change, and an increase in extreme weather events in lower 
latitudes. But with great change comes great opportunity. As the United 
States assumes chairmanship of the Arctic Council, our Nation stands at 
a pivotal moment with the opportunity to proactively manage, protect 
and use this unique ecosystem proactively. Consequently, Ocean 
Leadership recently convened a forum to discuss the state of current 
knowledge, and how we can achieve the capacity to more accurately 
predict these changes. It is critical for operators in the Arctic and 
for U.S. diplomatic leadership that our science agencies, including 
NSF, NOAA and NASA, have the resources to develop and deploy the 
technologies we need to observe, monitor and understand this pivotal 
region.
              ocean exploration is america's next frontier
    The ocean is the predominant physical feature on our planet, 
covering 71 percent of the Earth's surface, containing 97 percent of 
the planet's water and 99 percent of the Earth's habitat. Despite the 
fact that most life on Earth lives in the ocean, 95 percent of the 
ocean remains unexplored. The estimated 91 percent of the sea-life that 
remains undiscovered may prove vital to human health and well-being 
through the development of pharmaceuticals and medicinals. For 
instance, biologist Stanley Watson from Woods Hole Oceanographic 
Institution conducted fundamental research on bacteria's role in the 
marine food web in the 1970's. This work resulted in a patent for the 
detection of bacteria in seawater, using an extract from the blood of 
horseshoe crabs, which spun off into a company that was the first 
licensed by the FDA to detect the presence of different kinds of human 
disease causing bacteria. Today, more than a half a million crabs are 
captured each year to ``donate'' about 30 percent of their blood 
(valued at $60,000 per gallon) for a global industry valued at $50 
million a year that ensures the sterility of vaccines, IV fluids, 
surgical instruments, artificial implants, and countless other drugs 
and medical devices. It is important for NOAA to have a robust ocean 
exploration endeavor and for NSF and NASA to continue funding basic 
research in this area that may form the building block for the next 
generation of cures for human ailments.
             educating the next generation of geoscientists
    The geosciences support from NSF, in addition to the STEM education 
programs at the mission agencies, is essential for training the next 
generation of geoscientists. The Workforce Research team at the 
American Geosciences Institute calculated that there will be a shortage 
of 135,000 geoscientists in the U.S. workforce over the next decade. We 
can ill afford to have a shortage of these workers that are vital for 
the energy and weather forecasting industries as well as natural 
resource managers, land use planners and first responders. Diversity 
continues to be a challenge for the scientific community as we need to 
develop a workforce whose composition better resembles the broader 
population. We greatly appreciate the support this subcommittee has 
given to STEM education programs at NSF, NOAA and NASA, and encourage 
this support to extend into the geoscience directorate at NSF, which 
aids the development of thousands of early career geoscientists.
    As you draft your spending bill, I hope that you will note that the 
bulk of the intellectual capacity regarding the ocean environment 
resides within the academic research community. Peer-reviewed 
extramural research is the most efficient and effective vehicle for 
providing our policy makers and our commercial partners with the 
expertise, information and data necessary to address the emerging 
challenges facing our Nation. We also hope that you will continue to 
permit science priorities and decisions to be made by the scientific 
community, which has enabled America's innovation economy to thrive for 
decades. Given the austere fiscal environment, we are prepared to work 
with the Foundation to help ensure that there is robust core research 
at a time when new facilities are coming online.
    In summary, the funding we have recommended is essential for 
American agriculture and energy security, U.S. technology leadership, 
our global posture in the Arctic, ocean observing and exploration, and 
the next generation of American scientific talent.
    Mr. Chairman and members of the subcommittee, I greatly appreciate 
the opportunity to share our recommendations, and I encourage you to 
continue your long-standing bipartisan support for science funding in 
the fiscal year 2016 budget and into the future.
    Below is a list of the institutions that are represented by the 
Consortium for Ocean Leadership.

      Alabama

Dauphin Island Sea Lab

      Alaska

University of Alaska Fairbanks
Alaska Ocean Observing System
North Pacific Research Board

      California

Bodega Marine Lab
Monterey Bay Aquarium Research Institute
Moss Landing Marine Laboratory
Naval Postgraduate School
Stanford University
University of California, Santa Barbara
University of California, Santa Cruz
University of California, San Diego (Scripps)
University of Southern California
Aquarium of the Pacific
Hubbs-SeaWorld Research Institute
Romberg Tiburon Center for Environmental Studies
Esri
L-3 MariPro, Inc.
Liquid Robotics, Inc.
Teledyne RD Instruments

      Colorado

Cooperative Institute for Research in Environmental Sciences (CIRES)

      Connecticut

University of Connecticut

      Delaware

University of Delaware
Mid-Atlantic Regional Association Coastal Ocean Observing System 
(MARACOOS)

      Florida

Florida State University
Harbor Branch Oceanographic Institute at FAU
Mote Marine Laboratory
University of Florida
University of Miami
University of South Florida
Earth2Ocean, Inc.
Florida Institute of Oceanography
Nova Southeastern University

      Georgia

Skidaway Institute of Oceanography of the University of Georgia
Savannah State University

      Hawaii

University of Hawaii

      Illinois

John G. Shedd Aquarium

      Louisiana

Louisiana Universities Marine Consortium (LUMCON)
Louisiana State University

      Maine

Bigelow Laboratory for Ocean Sciences
University of Maine
The IOOS Association (formerly NFRA)

      Maryland

University of Maryland Center for Environmental Science
Johns Hopkins University
Marine Technology Society
National Aquarium

      Massachusetts

Massachusetts Institute of Technology
University of Massachusetts
Woods Hole Oceanographic Institution

      Michigan

University of Michigan

      Mississippi

University of Mississippi
University of Southern Mississippi

      Nebraska

University of Nebraska, Lincoln

      New Hampshire

University of New Hampshire

      New Jersey

Rutgers University

      New York

Columbia University (LDEO)
Stony Brook University

      North Carolina

Duke University Marine Laboratory
University of North Carolina, Chapel Hill
University of North Carolina, Wilmington
East Carolina University
North Carolina State University

      Oregon

Oregon State University

      Pennsylvania

Pennsylvania State University

      Rhode Island

University of Rhode Island

      South Carolina

Belle W. Baruch Institute for Marine and Coastal Sciences
South Carolina Sea Grant Consortium

      Texas

Harte Research Institute
Texas A&M University
University of Texas, Austin
Fugro
Sonardyne, Inc.

      Virginia

College of William and Mary (VIMS)
Old Dominion University
CNA
Institute for Global Environmental Strategies (IGES)
U.S. Arctic Research Commission
CARIS, USA
SAIC

      Washington

University of Washington
Sea-Bird Scientific

      Washington, DC

National Ocean Industries Association (NOIA)
Southeastern Universities Research Association (SURA)

      Wisconsin

University of Wisconsin-Milwaukee, School of Freshwater Sciences

      Australia

Institute for Marine and Antarctic Studies (IMAS) at the University of 
Tasmania

      Bermuda

Bermuda Institute of Ocean Sciences (BIOS)

      Canada

Dalhousie University
University of Victoria
                      
                                 ______
                                 
          Prepared Statement of the Fish Locally Collaborative
            national oceanic and atmospheric administration
                   national marine fisheries service
    Members and supporters of the Fish Locally Collaborative appreciate 
the opportunity to submit comments on the proposed fiscal year 2016 
budget for the National Marine Fisheries Service. The Fish Locally 
Collaborative (FLC) is a network of fishing communities, including 
fishers, processors, marketers, families, scientists, and seafood 
consumers, with over 400 individuals representing 60 organizations and 
networks, and over 400,000 fishing families spanning the globe. The FLC 
does not speak as a unified voice on all matters, but rather seeks to 
collaborate, research, and learn from each other in developing new 
solutions and policy directives in sustainable fisheries.
                      flc values and perspectives
    The FLC is committed to restoration of marine ecosystems, fishing 
communities, and a fair seafood value chain. The network values a 
genuine democratic and bottom-up approach to fisheries management, 
which is needed to achieve healthier ecosystems and ensure a diverse 
fleet that maximizes value to fishing communities, local economies, and 
the food system. Success will be achieved when appropriate management 
tools are made available, fishermen's local knowledge is accounted for 
in the decision-making process, and the scale of fishing matches the 
scales of the ecosystems.
    The fishing industry includes ports, fleets, processors, fish 
workers, and people who eat seafood. Our Nation benefits from strong 
coastal communities (both rural and urban) and measuring a fisherman's 
impact needs to include the triple bottom line with an increased focus 
on community (social) values and benefits. Large-scale corporate 
interest and control over access to fisheries hurts marine ecosystems, 
hurts local economies, hurts the seafood value chain, and divides 
fishing communities.
    The Magnuson Stevens Fisheries Conservation and Management Act 
establishes goals and describes national benefits in terms of fish 
stocks, habitat protection, port economies, and seafood, but current 
management has focused primarily on fishing and its impact on habitat, 
to the relative exclusion of community benefits and healthy seafood.
    While cutbacks in allowable catch driven by 10-year rebuilding 
plans have received the greatest attention as the cause of economic 
distress in the fishing fleets and ports, the current management system 
has exacerbated these difficulties greatly, particularly for community-
based and family-owned boat fishermen, through such mechanisms as: 
stock assessments unable to deliver reliable predictions and management 
alternatives; failure to assess non-fishing impacts, such as climate 
change, pollution, and ecosystem dynamics; collapsing prices due to 
cheap foreign imports, high-volume extractive fisheries, and weak 
domestic markets for local seafood; inflexibility in shifting effort of 
the fleet to other species; regulations that fail to protect the 
discrete, local fish populations that are so important to community-
based and family-owned boats; pressure from real estate development in 
working waterfronts; and high fuel and other costs of fishing.
                            work of the flc
    FLC members are active in researching and creating new models and 
practices to address a range of needs and opportunities, including: 
protection of fleet diversity, multi-species harvesting and community-
based management approaches; local food system development, such as 
expanding markets for hospitals, schools, colleges; creating the 
Community Supported Fishery (CSF) model and replicating it widely; 
working waterfront protection; value-added product development and 
waste recovery; ocean planning and decisionmaking. We also reach out to 
and are informed by experts and practitioners in the farming sector and 
other related fields of institutional, market, financial, and 
technology innovation and reform.
         comments on the proposed fiscal year 2016 nmfs budget
    It is from this foundation of values, perspectives, and capacity 
that FLC members and supporters offer specific comments on the proposed 
fiscal year 2016 NMFS budget.
I. Habitat and Ecosystem-Based Management
    A. The FLC offers support for the proposed $5.0 million increase in 
funding for Ecosystem-based Solutions for Fisheries Management, in 
particular the language in the Blue Book suggesting that ``this 
integrated, cross-disciplinary, and cross-line office scientific 
initiative will promote understanding of the importance of inshore and 
offshore habitat to the productivity and recovery of fisheries and 
protected species.''
    The FLC supports this initiative because it can begin to address 
non-fishing impacts more adequately, in particular the relationship of 
healthy ocean habitat to healthy fish stocks. Current fisheries 
management is obligated to manage healthy fish stocks and yet they are 
not required to address non-fishing impacts such as climate change, 
pollution, deforestation, mining, and oil and gas exploration, which 
all have enormous effects on fish population. The narrow approach and 
micro-focus on controlling fishing pressure in order to maintain 
healthier fish populations places a disproportionate level of blame and 
responsibility on fishing businesses and deflects responsibility from 
large-scale polluters, in particular.

    B. The FLC opposes $5.7 million in increased funding for 
Consultation and Essential Fish Habitat Implementation Capacity, that 
is intended ``to reduce delays and streamline permitting and review 
timeframes''. FLC members are well aware that proposals are fast-
emerging for sand mining, oil and gas drilling, offshore aquaculture, 
and other extractive industries, all of which would threaten to damage 
fish stocks, marine mammals, habitat, and ocean health more generally. 
Ocean planning efforts have only just begun in the regions, and it is 
already clear that the research and knowledge base for properly 
assessing permit applications is not available. ``Zoning'' and 
privatized, long-term leasing of the ocean are also not yet justified 
as consistent with adaptive, ecosystem-based management principles that 
NOAA itself espouses.
    The ocean is a dynamic and integrated ecosystem, just beginning to 
experience the impacts of climate change and acidification. The 
precautionary principle--that when there is scientific uncertainty, a 
heavy burden of proof rests on the industry--should be the guiding 
framework at this time. Consultation on permitting should be delayed 
until a significantly stronger framework for adaptive, ecosystem and 
community-based management is developed that protects and enhances the 
public trust in the ocean is developed. We therefore recommend that 
permitting activities be undertaken cautiously until additional studies 
are completed and more stringent standards, including for habitat 
protection, are formulated.

    C. NMFS has also requested $2.0 million in additional funds to 
support Domestic Seafood Production and Jobs through Aquaculture. FLC 
members generally support expanded shellfish aquaculture, in particular 
oyster reef restoration that provides multiple benefits in restoring 
ocean health and providing jobs and food, but would oppose an 
accelerated permitting of offshore finfish aquaculture, with its 
history of pollution and relatively unsafe product. FLC members oppose 
long-term leases that would be tantamount to privatization of the 
ocean. Any funding made available to the Agency should be directed to 
further research and pilot projects, including for the potential for 
polytrophic, multi-species and clean initiatives that both supply 
healthy seafood and restore habitat.
II. Catch Share Programs and Community Resilience
    The NMFS budget proposal includes a $2.2 million increase in 
funding for the National Catch Share Program, with a justification that 
``the implementation of catch share programs can yield efficiencies 
that lower fisheries management costs and increase the profitability of 
fisheries over time.'' The NOAA budget also includes funding for a $50 
million Regional Coastal Resilience grants program, to develop 
community, ecosystem, and economic resilience.
    FLC members and supporters strenuously object to these goals for 
Catch Share management, in particular profit maximization, and 
respectfully suggest that they are in direct conflict and contradiction 
with NOAA's overarching mission to support and develop community 
resilience.
    On-the-ground experience and recent academic literature both 
demonstrate that Catch Share programs are consolidating fisheries 
access into fewer and larger-scale businesses to the exclusion of 
owner-operator, younger generation, and independent fishermen and to 
the detriment of crew. This consolidation creates a disproportionate 
loss of fisheries access to rural communities, loss of capacity and 
infrastructure in fishing ports, negative ecological impacts, and loss 
of food access.
    We therefore suggest that funding under the Catch Share program be 
utilized, in partnership with fishing communities and stakeholders, to 
research the full suite of economic, environmental and social costs 
imposed on communities and consumers of seafood by the single-minded 
focus on profit maximization and to explore and develop mechanisms for 
modifying or ending Catch Shares where they have not worked as 
predicted, and to develop criteria and standards for ``Fishing 
Community'' and ``Regional Fishery Associations'', fishing community 
sustainability plans, and fleet diversity protections.
III. Collaborative Research
    For 2 years, the Senate Appropriations Report has encouraged NMFS 
to ``expand the Agency's activities in chartering commercial fishing 
vessels to serve as research and fishery survey vessels.'' While NMFS 
and NOAA leadership have indicated their support for collaborative 
research, little has been done to expand partnerships to date.
    It has come to our attention that there are several impediments to 
collaborative research that the subcommittee could address. NOAA has 
directed in recent years that all collaborative research projects 
involving the fishing industry and academic institutions be managed 
through a competitive grants program and short-term awards. The FLC 
recommends, based on conversations with both current and former NMFS 
Science staff and outside researchers, that the subcommittee encourage 
the development of cooperative agreements on a multi-year basis, as 
other Federal agencies do. Only cooperative agreements will allow for a 
genuine partnership to emerge and for all parties to co-draft research 
plans that incorporate requirements and insights from all parties, 
including NMFS.
    FLC members strongly recommend that an emergency action be take to 
coordinate a fisheries dependent and independent data collection effort 
as input to more reliable stock assessments, in cases, such as cod in 
the Northwest Atlantic, where data is sparse and current management 
cutbacks on allowable quota are causing severe economic and social 
distress in the fishing industry and port communities.
IV. Saltonstall-Kennedy Funding
    FLC members support continued increases in funding for the 
Saltonstall-Kennedy grants program for research and development in 
harvesting, processing, and marketing. In particular, we encourage 
projects to develop a strong local seafood system, community-based and 
multi-species fisheries management innovations that diversify catch and 
develop markets for under-utilized species, value-added and waste 
recovery product development, shellfish and polytrophic aquaculture 
pilot projects, boat designs that increase fuel-efficiency and promote 
safety and use of sustainable technology, and programs to increase 
access of independent-operator and young entrants.
    These comments were based on two prior policy-related letters 
signed by numerous Fish Locally Collaborative members and supporters 
throughout the country. The first was a letter on Magnuson-Stevens 
reauthorization submitted to Congressmen John Tierney and Peter DeFazio 
on August 13, 2014; the second a public comment letter submitted to the 
Greater Atlantic Regional Fisheries Office re the GARFO Draft Strategic 
Plan.

    Links to these letters and signatories can be found at:

    Congressmen Tierney and DeFazio:
        https://drive.google.com/file/d/0BwT-fcX3Ff5VTVVlTDBQYW1ZWE0/
        view?usp=sharing.

    GARFO letter:
        https://drive.google.com/file/d/0BwT-fcX3Ff5VYjBnN2laUXd5ZTA/
        view?usp=sharing.

    Signatories include fishermen, academics, seafood business owners, 
seafood consumers, and advocates from both East and West Coast States 
and organizational supporters include the American Sustainable Business 
Council, Slow Food USA, Health Care Without Harm, and others.

    [This statement was submitted by Valerie I. Nelson, Ph.D., Policy 
Transformation Working Group Organizer-FLC.]
                                 ______
                                 
      Prepared Statement of the Joint Ocean Commission Initiative
    Chairman Shelby, Ranking Member Mikulski, and other distinguished 
Members of the Subcommittee on Commerce, Justice, Science, and Related 
Agencies, we thank you for the opportunity to submit written testimony 
regarding the fiscal year 2016 Commerce, Justice, Science, and Related 
Agencies appropriations bill. The Joint Ocean Commission Initiative is 
a collaborative, bipartisan effort to catalyze meaningful ocean policy 
reform and action at the national, regional, and State levels. 
Established in 2005, the Joint Initiative promotes, maintains, and 
updates the important work of the U.S. Commission on Ocean Policy and 
the Pew Oceans Commission. Our 2013 report, Charting the Course: 
Securing the Future of America's Oceans, contains recommendations to 
improve the management of our ocean resources that are echoed here.
    The Joint Initiative is highly appreciative of the progress your 
subcommittee has made in providing incremental but substantive 
additional resources to critical ocean and coastal accounts. We are 
acutely aware of the challenges you face addressing the funding needs 
of all the programs within the jurisdiction of your subcommittee. The 
Joint Initiative believes a continued commitment to protecting base 
funding and core programs at the National Oceanic and Atmospheric 
Administration (NOAA), National Science Foundation (NSF), and National 
Aeronautics and Space Administration (NASA) that help manage, protect, 
and better understand our Nation's oceans and coasts and the Arctic is 
an investment in the future of our country that will provide 
significant economic, social, ecological, and national security 
benefits. Among the many ocean and coastal programs under your 
jurisdiction, we urge that maintaining and increasing investment in the 
following programs be prioritized in fiscal year 2016 appropriations.
                           coastal resilience
    The Joint Initiative strongly supports increasing NOAA's overall 
budget to $6 billion, and in doing so maintaining the recent trend 
toward balancing NOAA's portfolio to emphasize ocean and coastal 
priorities. For example NOAA's National Ocean Service (NOS) would be 
increased in NOAA's fiscal year 2016 budget by nearly $60 million to 
$574 million. Specifically, within NOS, we ask you to consider funding 
the Regional Coastal Resilience Grant program consistent with NOAA's 
fiscal year 2016 budget request at $50 million, a $45 million increase 
from the fiscal year 2015 proposal. An important element of this 
program is its ability to provide competitive funding to support multi-
State regional ocean partnerships that coordinate data sharing and 
decisionmaking across jurisdictions, implement innovative solutions to 
shared priorities, and effectively engage ocean and coastal 
stakeholders.
    These partnerships are increasingly critical as States and 
communities confront challenges such as ocean acidification, sea level 
rise, competing demands for ocean resources, burgeoning populations 
along our coasts, and increasing threats from extreme weather events. 
Resilient coastal communities are not only able to minimize loss and 
negative impacts to life, property, and the coastal ecosystem, they are 
also able to quickly return residents to productive activities and 
restore essential services. This is imperative to facilitating full and 
timely economic, social, and environmental recovery. Fully funding this 
program will enable NOAA and its partners to address a suite of 
challenges, including a more efficient application of limited resources 
to ensure the health of our oceans and coasts.
                          ocean acidification
    The Joint Initiative believes the inclusion of $30 million in the 
NOAA budget for the Integrated Ocean Acidification program is essential 
to help us begin to address the chemistry, variability, and impact of 
acidification on the marine environment. Ocean acidification is a 
global problem needing global solutions, and it is occurring along 
every shoreline in the United States. While shellfish and coral reefs 
receive most of the attention related to ocean acidification, 
fisheries, aquaculture, and coastal ecosystems and economies around the 
Nation will be greatly affected. Funding the Integrated Ocean 
Acidification program at NOAA at increased levels will allow us to 
measure and assess the emerging threat of ocean acidification, better 
understand the complex dynamics causing and exacerbating it, work to 
determine its impact, and develop mechanisms to address it.
                                 arctic
    The Joint Initiative recommends that Congress make a significant 
investment through the fiscal year 2016 appropriations bill toward 
implementation of the National Strategy for the Arctic Region. This 
will support the United States chairmanship of the Arctic Council over 
the next 2 years, and lay the groundwork for sound international 
management of the region while protecting a sensitive and rapidly 
changing ecosystem. Increased funding for Federal agencies operating in 
the Arctic, such as NOAA and NSF, is essential to our international 
leadership in the region and will enable cross-cutting efficiencies 
with the Coast Guard, the Navy, and the Department of the Interior.
    The Joint Initiative is convening an Arctic Ocean Leadership 
Roundtable with U.S. Arctic leaders and key stakeholders from multiple 
sectors to generate ideas for how local, State, and regional work can 
inform and influence national policy with regard to Arctic ocean and 
coastal issues. Many of the ideas generated in this forum can be 
implemented with increased investment in the Arctic. Such investment 
can also encourage better collaboration with State and local 
governments, Alaskan Native leaders, and industry to improve the 
ability of commercial entities to operate safely in the region and 
ensure effective response and recovery in the event of a natural or 
human-caused disaster. This includes improving coordination and data-
sharing on oil spill planning, preparedness, and response, vessel 
tracking, and search-and-rescue, as well as investment in new 
icebreakers, aircraft, and shore-based infrastructure. Additionally, 
funding Arctic-related programs at NOAA enables a range of important 
services essential to our understanding of the Arctic including ocean 
observation services, weather and sea ice predictions, mapping and 
charting, and sound management of marine resources.
                      sustained ocean observations
    We are strongly supportive of enhanced capabilities for NOAA's 
Office of Oceanic and Atmospheric Research (OAR), the Integrated Ocean 
Observing System, and similar programs at NSF. Specifically we ask you 
to consider funding OAR at $500 million to support the continued and 
enhanced operations of this vital program. This funding is central to 
NOAA's ability to accurately forecast weather, enable communities to 
plan for and respond to climate events such as flooding and drought, 
and protect and manage the Nation's coastal and ocean resources.
    Funding NOAA's Sustained Ocean Observations and Monitoring program 
under this account at $42 million will provide information essential 
for accurate forecasting of hurricanes, typhoons, flooding, heat waves, 
and wildfires. For example, data and analyses of ocean and atmospheric 
conditions are increasingly used for drought early warning systems, 
enhanced tsunami warning systems, and storm surge monitoring. Ocean 
observations are also imperative for calibrating and validating 
satellite observations. Maintaining baseline ocean observations in 
support of weather and regional predictions, fisheries management 
ecosystem studies, tide and current monitoring, and sea level change is 
essential. Sustained ocean observations will help maintain the 
continuity of long-term data sets that are essential for ensuring that 
communities are able to respond and adapt to a rapidly changing world, 
both today and into the future.
                         sustainable fisheries
    In 2006 Congress made the bold decision to end overfishing once and 
for all by amending the Magnuson Stevens Fisheries Conservation and 
Management Act to require annual catch limits and associated 
accountability measures to be implemented for all federally managed 
fisheries. Through the commitment and tireless efforts of our 
fishermen, fishery management councils, scientists and managers, the 
U.S. is poised to achieve this historic milestone in natural resource 
management. With the investment in stock assessments, cooperative 
research and innovation, and science-based management, the U.S. model 
of fisheries management has become an international hallmark for 
addressing the ecological and economic sustainability challenges facing 
global fisheries. The Joint Initiative supports domestic and 
international efforts to fully implement the recommendations in the 
Presidential Task Force on Combating IUU Fishing and Seafood Fraud, 
along with similar efforts for enhanced enforcement like the Trans-
Pacific Partnership. The end of chronic overfishing means healthier 
ocean ecosystems and a brighter future for fishermen and coastal 
communities. The Joint Initiative asks the subcommittee to consider 
restoring funding for NOAA's National Marine Fisheries Service (NMFS) 
at the requested level of $990 million, allowing it to continue 
movement towards sustainable management of fish stocks within the U.S. 
Exclusive Economic Zone.
                           ocean exploration
    The Joint Initiative appreciates the subcommittee's long standing 
support of ocean exploration at NOAA and requests that you provide $28 
million for the Ocean Exploration program, consistent with funding in 
fiscal year 2015, to increase the pace, scope, and efficiency of 
exploration. This would be $9 million above the NOAA budget request for 
fiscal year 2016. A bipartisan effort since inception, the Ocean 
Exploration program was strongly endorsed by Congress when created in 
2002. The program has greatly contributed to our knowledge of the 
ocean, producing Arctic surveys which enabled the U.S. to argue for an 
extension of our own Exclusive Economic Zone; baseline characterization 
of the Deepwater Horizon site in the Gulf before and after the oil 
spill; discovery of new gas hydrates stretching from Cape Cod to Cape 
Hatteras, with implications for coastal hazards and ocean 
acidification; and new fishery habitat maps off the Northeast.
                    science, research, and education
    The Joint Initiative calls attention to the need for consistent and 
dedicated funding for ocean science, research, and education. We ask 
you to increase funding for ocean science infrastructure, research, and 
grant programs at NOAA, NSF, and NASA that are working to improve our 
understanding of critical physical and biological ocean processes. 
These programs provide local, State, and national decision makers with 
the information they need to make informed decisions. The Joint 
Initiative also urges you to fund education programs at increased 
levels. Ocean education efforts are critical for cultivating current 
and future ocean stewards, especially given the growth in careers that 
require ocean-related education and knowledge.
    In particular, we encourage you to provide $7.7 billion for the 
NSF, including $1.365 billion for the Geosciences Directorate and its 
Division of Ocean Science. NSF's investment in the geosciences has 
spurred innovations, addressed important national and global 
challenges, spurred new economic sectors, and led to the development 
and implementation of advanced technologies that save lives, protect 
property, and support our economy. For example, investments supporting 
basic research in mathematics, physical sciences, computer sciences, 
and geosciences, have led to the development of sophisticated models, 
satellites, radar, and instrumentation that has greatly improved 
hurricane forecasting, now allowing for nearly a week of preparations 
by cities, businesses, institutions, and undoubtedly saving lives.
    We also urge $1.95 billion in funding for the NASA's Earth Science 
Division, up from $1.77 billion in fiscal year 2015 to support 
critically important ocean and coastal science and education. NASA 
satellites can view Earth as a planet and enable the study of it as a 
complex, dynamic system of diverse components: the oceans, atmosphere, 
continents, ice sheets, and life. Through partnerships with agencies 
that maintain forecasting and decision support systems, NASA improves 
national capabilities to predict climate, weather, and natural hazards; 
manage resources; and support the development of environmental policy.
                           concluding remarks
    The Joint Initiative greatly appreciates your commitment to 
stretching scarce resources to address the challenges of a maritime 
nation. We will continue to track progress in advancing key ocean and 
coastal programs and accounts in fiscal year 2016 and beyond. 
Recommendations from ``Charting the Course'' and other reports from the 
Joint Initiative identify specific areas of achievement and deficiency. 
Implementation of the recommendations will secure the future of our 
Nation's ocean ecosystems, and the critical resources they provide, and 
ensure that they will be abundant and able to support America's ocean, 
coastal, and Great Lakes economies and the jobs and communities on 
which our Nation depends.
    Thank you for considering our requests as the subcommittee begins 
it fiscal year 2016 appropriations process. The Joint Initiative 
appreciates your attention to this matter and stands ready to assist 
you in advancing positive and lasting changes in the way we manage our 
Nation's oceans and coasts.

       Joint Initiative Co-Chairs and Leadership Council Members

The Honorable William Ruckelshaus <rm-bond> The Honorable Norman Mineta

    Frances Beinecke <rm-bond> Don Boesch <rm-bond> Lillian Borrone 
                   <rm-bond> The Honorable Norm Dicks

  Quenton Dokken <rm-bond> Vice Admiral Paul Gaffney <rm-bond> Robert 
                   Gagosian <rm-bond> Sherri Goodman

   Scott Gudes <rm-bond> The Honorable Conrad Lautenbacher <rm-bond> 
                            Margaret Leinen

Christopher Lischewski <rm-bond> The Honorable Jane Lubchenco <rm-bond> 
                             Julie Packard

          The Honorable Leon Panetta <rm-bond> John Pappalardo

          The Honorable Pietro Parravano <rm-bond> Diane Regas

    Randy Repass <rm-bond> Andrew Rosenberg <rm-bond> The Honorable 
                         Christine Todd Whitman

                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    The National Association of Marine Laboratories (NAML) is pleased 
to submit testimony to the subcommittee with a series of 
recommendations that we believe would strengthen the Nation's research 
and education enterprise. NAML is a nonprofit organization representing 
the ocean, coastal and Great Lakes interests of member laboratories 
that employ thousands of scientists, engineers and professionals 
nationwide. NAML labs conduct high quality research and education in 
the natural and social sciences and translate that science to improve 
decisionmaking on important issues facing our country. NAML's 
priorities are drawn from and strongly support two important reports 
from the National Academy of Sciences. They are: Sea Change: 2015-2025 
Decadal Survey of Ocean Sciences (DSOS); and Enhancing the Value and 
Sustainability of Field Stations and Marine Laboratories in the 21st 
Century. Specific priorities germane to NAML labs are:
  --Enhance science, education and public engagement at marine labs by 
        supporting the continued development of their unique assets and 
        qualities that allow them to prepare the next generation of 
        scientists, expand opportunities for active learning and 
        collaborative research, and explore a wide range of approaches 
        to engage the public. This includes strong sustained support 
        for competitive merit-based ocean, coastal, and Great Lakes 
        research provided by relevant Federal agencies to address the 
        research priorities identified in DSOS;
  --Promote a network for discovery and innovation via Federal and non-
        Federal support to build and maintain a modern infrastructure 
        for research, education, and networking including advanced 
        Internet connectivity and cyber infrastructure;
  --Pursue financial sustainability by developing business plans that 
        foster the unique value of marine labs, creating mechanisms to 
        establish reliable based funding, and diversifying approaches 
        to obtain supplemental support--such as a national partnership 
        program to co-locate Federal scientists and infrastructure at 
        NAML facilities; and
  --Develop metrics for demonstrating the impact of marine labs in 
        research, education, and public engagement.
the role of marine laboratories in the nation's research and education 
                               enterprise
    ``Field stations are national assets formed by the unique merger of 
natural capital, intellectual capital, social fabric, and 
infrastructure that leads to the important scientific endeavors 
required if we are to understand our rapidly changing natural world''. 
Enhancing the Value and Sustainability of Field Stations and Marine 
Laboratories in the 21st Century.
    Ocean, coastal and Great Lakes marine laboratories are vital, 
place-based ``windows on the sea.'' They connect communities with 
cutting edge science, while providing students and citizens with 
meaningful learning experiences. The members of NAML work together to 
improve the quality and relevance of ocean, coastal and Great Lakes 
research, education and outreach. NAML seeks support for the following 
activities:
  --The conduct of basic and applied research of the highest quality, 
        making use of the unique capabilities of coastal laboratories 
        in conducting education, outreach and public service;
  --Balanced support of research with infrastructure with particular 
        emphasis on cost-effective networking of capabilities;
  --Encouragement of effective management and conservation of marine 
        and coastal habitats and resources using ecosystem-based 
        management approaches that restore ecosystem health;
  --Observing systems that collect data needed to improve predictions 
        of natural and human caused disasters and support the 
        management of marine resources for the benefit of environmental 
        and human health needs; and
  --Education and training.
 oceans, coasts and great lakes are vital for economic growth and the 
                        well-being of the nation
    More than half of the United States population lives in coastal 
counties that generate 58 percent ($8.3 trillion) of the Nation's gross 
domestic product (GPD). In 2011, Americans, on average, ate 15 pounds 
of fish and shellfish per person--4.7 billion pounds all together--
making the U.S. second in the world in total seafood consumption. 
Offshore oil production in the U. S. Exclusive Economic Zone accounts 
for 24 percent of the total U.S. crude oil production. If American 
coastal watershed counties collectively comprised a single country, 
that country would have a GDP higher than that of China. The United 
States has jurisdiction over 3.4 million square miles of oceans--an 
expanse greater than the land area of all 50 States combined. This is a 
dynamic area that offers a mosaic of biologically diverse habitats that 
provide a wealth of environmental resources and economic opportunities, 
while at the same exposing human and biological communities to hazards 
such as damaging tsunamis and hurricanes, industrial accidents and 
outbreaks of water borne pathogens. The 2010 Gulf of Mexico Deepwater 
Horizon oil spill and Sandy in 2012 are vivid reminders that the depth 
of our understanding of our oceans and coastal areas, and our ability 
to protect them, is far from complete. Developing sufficient 
capabilities to sustain ocean-based economies and protect our coasts 
and coastal communities from natural and man-made hazards requires a 
sustained, balanced investment in research, infrastructure, education, 
and training.
    The Great Lakes region boasts a massive geographic footprint, and 
is a major driver of the North American economy. With economic output 
of $4.7 trillion in 2011, the region accounts for 28 percent of 
combined Canadian and U.S. economic activity. By comparison, the 
region's output ranks ahead of Germany, France, Brazil and the U.K., 
and it would rank as the fourth largest economy in the world if it were 
a country, behind only the U.S., China and Japan. The Great Lakes are 
responsible for nearly 1 million manufacturing jobs; 217,000 jobs in 
tourism and recreation; over 100,000 in shipping; over 110,000 in 
agriculture, fishing and food production and about 10,000 related to 
mining. Understanding the complexity of the Great Lakes is vital for 
the future health and well being of this region of the country.
                         investing in research
    NAML believes America is driven by innovation--advances in ideas, 
products and processes that transform existing economies, create new 
industries and jobs, and contribute to our Nation's ecological and 
economic health and security. It is essential that the Nation reaffirms 
and revitalizes the unique partnership that has existed between the 
Federal Government, the States, business and the Nation's research and 
education enterprise. Investing in the Nation's research enterprise has 
contributed significantly to our long-term prosperity and technological 
pre-eminence through research spanning a landscape of disciplines, from 
physics to geology, chemistry to biology, engineering to social 
sciences, and observing to modeling. NAML believes that research and 
education programs at the major Federal science agencies with ocean and 
coastal responsibilities should be viewed as priority investments in 
the future health and well being of the Nation. Much attention has been 
focused justifiably on the need for our Nation to continue its support 
of premier basic research programs. It is also important to maintain 
strong support for mission-oriented ocean, coastal and Great Lakes 
research that includes long term observing programs. Research programs 
that enhance agency missions and support the extramural community in 
competitive, merit-based research provide highly cost-effective returns 
on investment and distribute economic and societal benefits over a 
broad array of communities. Further, NAML believes that developing 
exchange programs between Federal agencies and marine laboratories will 
further strengthen the communication and capacity of both for the 
benefit of the ocean science and management enterprise.
    Programs that support the extramural community via competitive, 
merit-based research provide highly cost-effective returns on 
investment, leverage additional resources to meet science and 
management priorities, and distribute economic and societal benefits 
over a broad array of communities. While the National Oceanic and 
Atmospheric Administration (NOAA) has acknowledged his assertion on 
many occasions, its extramural support for its partners has continued 
to decline relative to the agency's bottom line. From background 
information developed for the NOAA Science Advisory Board's R&D 
Portfolio Review Task Force support by the Office of Oceanic and 
Atmospheric Research (OAR) for extramural R&D has declined by $60 
million since 2005--from $171.6 million to $107.1 million while the 
percentage of OAR's research activities to support extramural programs 
has dropped from just over 50 percent down to 34 percent of the total. 
In the National Ocean Service (NOS), support for extramural R&D has 
declined from a level of $21.6 million in 2005 to $13.7 million in 2011 
while intramural support has grown from a level of $53 million in 2005 
to a level of $58 million in 2011. Moreover NOAA has repeatedly 
proposed the termination of numerous extramural programs--such as the 
John H. Prescott Marine Mammal Grants program--and the consolidation of 
research programs--such as Ocean Exploration and Research--which has 
led to the dramatic reduction in extramural research and education 
support.
    Beyond cutting back on its extramural support, NOAA now seeks 
permission to ``receive and expend funds made available by, any . . . 
private organization, or individual (proposed Section 108 of the 
General Provisions in the NOAA Section of the Appendix to the Fiscal 
Year 2016 Budget, page 218).'' This would enable NOAA to compete 
against non-Federal and private entities for private sector support. 
Thus not only is NOAA cutting back its own support, it intends to 
further exacerbate the situation by competing against its partners for 
the limited available non-Federal resources needed to fill the gaps 
created by NOAA's decision to scale back its extramural support. NAML 
urges the subcommittee to restore to the maximum extent possible NOAA 
support for its extramural research, education, and other related 
programs while also limiting NOAA's ability to compete with the private 
sector for non-Federal resources needed for research, education, and 
conservation programs.
                  investing in research infrastructure
    NAML believes that a comprehensive range of ocean and coastal 
research infrastructure is essential to meet growing demands for 
scientific information and to ensure that we restore and maintain 
ecosystem health to support safe, efficient, and environmentally 
sustainable use of our ocean, coastal and Great Lakes resources. Most 
marine laboratories operate independently of one another. Greater 
networking with other marine laboratories, field stations, and other 
research centers would leverage resources to facilitate discovery and 
spark innovation. Networking would also allow institutions to share 
best practices, protocols, and platforms for data archiving and 
retrieval. Such networking has the potential to open new arenas of 
scientific inquiry, education, and outreach. It can capture social and 
intellectual capital to tackle major questions and seize opportunities 
as no single marine laboratory can, and it enhances creativity and 
innovation by attracting a wide range of scientists and promoting 
multidisciplinary collaboration. The most successful and sustainable 
networks start small and are self-defining; they encourage reciprocity 
among network members. Networking can facilitate the development and 
diffusion of knowledge and technology in a way that encourages 
innovations. It is also important to appreciate that marine 
laboratories vary in scope, size, infrastructure requirements, and 
purpose; each contributes to the global portfolio in distinct ways. 
Internet connectivity and cyberinfrastructure are two neglected and 
underdeveloped elements of infrastructure. One common element, however, 
in need of attention is Internet connectivity and cyberinfrastructure, 
which would facilitate data sharing and analysis. Installation of new 
cyberinfrastructure requires data-management and data-sharing plans and 
conformity of data with widely used metadata standards. Such 
infrastructure also requires a long-term funding commitment for repair, 
upgrades, and technical support.
 investing in science, technology, engineering and mathematics (stem) 
                               education
    NAML's education mission is two-fold. First, it is to enhance ocean 
STEM education to ensure that all citizens recognize the reciprocal 
effects of the oceans, coasts and Great Lakes on their own lives and 
the impacts citizens have on these environments. Second, it is to 
provide formal research and training opportunities at K-12, college, 
and post-graduate levels to ensure a scientifically savvy, technically 
qualified, and ethnically diverse workforce capable of solving problems 
and answering questions related to the protection, restoration and 
management of coastal and ocean ecosystems, climate variability, and 
societal needs. An informed and engaged public is essential for the 
Nation to address complex ocean- and coastal-related issues, balance 
the use and conservation of marine resources, and maximize future 
benefits from the ocean. Public understanding of human impacts on the 
marine environment should be balanced with recognition of the benefits 
to be derived from well-managed ocean resources. Ocean-related 
education is by its nature interdisciplinary, involving many of the 
natural sciences and the human connection to natural resources. It can 
increase overall science literacy and enhance the Nation's health, 
standing, safety and security. NAML laboratories seek to expand the 
engagement of individuals from groups that have been historically 
under-represented in ocean research, education and outreach. This is 
particularly important in fulfilling the goal of achieving a 
diversified STEM pipeline to meet future science and ocean workforce 
needs.
    NAML remains concerned with the administration's STEM Education 
Consolidation proposal for fiscal year 2016. A total of 20 STEM 
education programs at eight key R&D mission agencies (including the 
National Oceanic and Atmospheric Administration, National Science 
Foundation, and National Aeronautics and Space Administration) will be 
impacted by this proposal. It is important for mission agencies to help 
support the next generation of scientific and technical talent--much of 
which will be needed by these agencies in future years. We urge the 
subcommittee to reject these consolidation proposals and support the 
continuation of these programs within their current agencies.
    NAML appreciates the opportunity to present these views to the 
subcommittee as it begins work on the development of the fiscal year 
2016 appropriations bill.
    Thank you.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), this 
testimony addresses important programs in the Department of Justice and 
Department of Commerce. NCAI is the oldest and largest American Indian 
organization in the United States. Tribal leaders created NCAI in 1944 
as a response to termination and assimilation policies that threatened 
the existence of American Indian and Alaska Native tribes. Since then, 
NCAI has fought to preserve the treaty rights and sovereign status of 
tribal governments, while also ensuring that Native people may fully 
participate in the political system. As the most representative 
organization of American Indian and Alaska Native tribes, NCAI serves 
the broad interests of tribal governments across the Nation. As 
Congress considers the fiscal year 2015 budget and beyond, leaders of 
tribal nations call on decision-makers to ensure that the promises made 
to Indian Country are honored in the Federal budget.
                              introduction
    Annual funding decisions by Congress are an expression of our 
Nation's moral priorities. Numerous treaties, statutes, and court 
decisions have created a fundamental contract between tribal nations 
and the United States: tribes ceded millions of acres of land that made 
the United States what it is today, and in return tribes have the right 
of continued self-government and the right to exist as distinct peoples 
on their own lands. And for its part, the United States has assumed a 
trust responsibility to protect these rights and to fulfill its solemn 
commitments to Indian tribes and their members.
    Part of this trust responsibility includes basic governmental 
services in Indian Country, funding for which is appropriated in the 
discretionary portion of the Federal budget. Tribal governments exist 
to protect and preserve their unique cultures, identities, and natural 
environments for posterity. As governments, tribes must deliver a wide 
range of critical services, such as education, workforce development, 
and first-responder and public safety services, to their citizens. The 
Federal budget for tribal governmental services reflects the extent to 
which the United States honors its promises to Indian people.
                         department of commerce
    Provide $35 million for the Minority Business Development Agency 
(MBDA).--Created by Executive Order in 1971, the MBDA was established 
to support minority business development centers and received funding 
of almost $63 million to carry out this mission. Since then, MBDA's 
funding has shrunk by over 50 percent to an estimated $30.5 million for 
fiscal year 2013 and $29.3 million for fiscal year 2014. After MBDA 
revamped its cooperative assistance grants to Minority Business Centers 
(MBCs), the Native American Business Enterprise Centers (NABECs) were 
eliminated and their services were consolidated with the MBCs. About 
$13 million of MBDA's budget is disbursed to the MBCs to provide 
business consulting; advice on business financing; and some procurement 
technical assistance to minority businesses, entrepreneurs, and tribal 
enterprises.
    With the service gap created by the elimination of NABECs, the need 
for an increased level of funding for MBDA is even greater. MBDA must 
sustain and expand support for these centers, which provide important 
assistance to businesses that help them grow and develop, thereby 
creating a stronger private sector and healthier national economy. The 
MBDA also supports minority contractors' teaming efforts to pursue 
Federal contracts, directs efforts to track minority business data, 
collaborates with the Office of Native American Affairs, and is 
increasing its focus on global trade.
    Fund the Office of Native American Affairs (ONAA) at a minimum of 
$1.25 million as part of the Commerce Department Management Budget.--In 
the late 1990s, the Secretary of Commerce established ONAA within the 
Secretary's office that was codified by the enactment of the Native 
American Business Development, Trade Promotion and Tourism Act of 2000 
(Public Law 106-464) (the 2000 Act). Since then, funding for the Office 
has been partial and very limited. In order to carry out its mission, 
ONAA must receive adequate support to implement Indian policy 
initiatives and expand Native American business development initiatives 
both domestically and internationally. Funding made available through 
Commerce's Departmental Management budget would help ONAA's efforts, 
particularly given the reduced focus of MBDA on specific Native 
American business assistance.
                               conclusion
    Thank you for your consideration of this testimony. For more 
information, please contact Virginia Davis, Senior Policy Advisor, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="91e7f5f0e7f8e2d1fff2f0f8bffee3f6">[email&#160;protected]</a>, NCAI Budget and Policy Analyst, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="28494d4a495a4a68464b494106475a4f">[email&#160;protected]</a> or 
Brian Howard, Legislative Associate, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2a4842455d4b584e6a44494b430445584d04">[email&#160;protected]</a>
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                              Association
    Chairman and members of the subcommittee, my name is William Reay 
and I am the Director of the Chesapeake Bay National Estuarine Research 
Reserve in Virginia, administered by the Virginia Institute of Marine 
Science, College of William and Mary. I submit this testimony in my 
capacity as President of the National Estuarine Research Reserve 
Association (NERRA). NERRA is a not-for-profit scientific and 
educational organization dedicated to the protection, understanding, 
and science-based management of our Nation's estuaries and coasts. 
NERRA appreciates the support this subcommittee has given to the 
research reserves over the years. As a result, the research reserves 
have been able to assist coastal communities and States in becoming 
more resilient to the ever increasing and complex challenges they face 
on a daily basis and into the foreseeable future.
    For fiscal year 2016, NERRA strongly recommends the following 
reserve system programs and funding levels within the National Oceanic 
and Atmospheric Administration (NOAA):

 
 
 
NERRS Operations                                       $23.9 million
NERRS Procurement, Acquisition, and Construction       $1.7 million
 (PAC)
 


    The National Estuarine Research Reserve System (NERRS) program 
bring the strength of both NOAA and partner science and stewardship to 
important coastal regions across the Nation. NERRS encompasses 28 
protected reserves located in estuaries that are home to our most 
productive habitats and populated communities--that support science-
based coastal resource management, research, and education to meet 
national priorities as mandated by Congress in the Coastal Zone 
Management Act (CZMA) of 1972. The States have been entrusted to 
operate and manage NOAA's program in 22 States and Puerto Rico, where 
over 1.3 million acres of land and water are protected in perpetuity. 
What distinguishes the research reserves is the community and State 
implementation of programs and local management of these places that 
form this Federal-State partnership program.
    The administration's fiscal year 2016 request for the NERRS is a 
total of $21.3 million. This amount will result in a reduction of 
funding to each State, and will diminish the current capabilities of 
the program's core operations. Specifically, the administration's 
request will decrease funding amounts going to each State; reduce water 
quality monitoring capabilities that coastal dependent communities, 
businesses and industries rely on; adversely impact the collection of 
data relating to hazards and sea level rise provided to decision-
makers; and, reduce the education and information exchange provided to 
communities and schools related to coastal resiliency. After reviewing 
the detailed NOAA budget request sent to the Congress, it is clear that 
States are inadequately supported to implement this national program 
and are compromised in their ability to fulfill the vision of Congress 
in its creation of the NERRS program.
    NERRA is deeply concerned with the administration's funding levels 
that we believe are inconsistent with key tenants of NOAA's own 
strategic plan--specifically, enhancing community and economic 
resiliency and strengthening science in support of coastal resource 
management. The administration's fiscal year 2016 requested funding 
level will diminish the NERRS's capacity to deliver important research, 
monitoring data, and education and training to its State, local, and 
regional partners.
    The NERRS program has grown as States identify the coastal needs 
that must be addressed, and the addition of new reserves has provided 
more science, training, and education resources that can be applied 
nationally. At issue is the cost associated with operating 28 reserves 
nationally has increased given the relatively recent addition of two 
reserves (Texas and Wisconsin) and a third (Hawaii) in fiscal year 
2016, the infrastructure it relies on has aged, and because there is a 
rapidly increasing need to help local communities address coastal 
hazards. Without funding, four critical core program areas are at risk.
  essential coastal resiliency nerrs programs impacted by inadequate 
                                funding
    1.  Reserve Operations.--First, the administration budget request 
flat-funds the program at the fiscal year 2015 level of $21.3 million. 
Flat-funding in the face of the program adding a 29th reserve in fiscal 
year 2016 will in effect result in reduced budgets for each of the 
current reserves. The addition of a new research reserve strengthens 
the national program by leveraging science, education, and partnerships 
that will benefit the Nation. Equally troubling is the absence of any 
mention of the expected expansions in NOAA's fiscal year 2016 budget 
submission. Along with the new Hawaii reserve, there is one more 
known--Connecticut--in process for future years.
    2.  Coastal intelligence--monitoring and data networks.--The second 
program area at risk is maintaining existing System-wide monitoring and 
data networks that provide immediate and long-term information to 
understand harmful algal blooms, assess water quality, identify habitat 
impacts from changing sea levels, aid in weather forecasting, and 
improve response to storm surge. Hundreds of entities use the NERRS 
water quality and weather data, including State water quality control 
programs; county health departments; shellfish growers and fishing 
industry professionals; the National Weather Service; and, insurance 
companies.
    3.  Sentinel sites provide early detection of change.--The third 
program area at risk is helping communities by providing data for early 
detection of habitat change that helps respond to coastal hazards by 
integrating monitoring, analysis and modeling to assess current habitat 
vulnerability, forecast future conditions and aid in the development of 
adaptive management strategies. Right now reserves are working to 
understand changes in tidal marshes, mangroves and sea grass beds. 
These habitats provide a wide range of highly valued ecosystem serves 
such as nursery habitat for commercial and recreational important fish, 
erosion and flood control, and water quality improvements.
    4.  Educating today's and tomorrow's decision-makers.--The forth 
program area at risk is providing relevant and timely science and 
support tools to decision-makers and to the next generation of 
scientists, resource managers, business people, and civic leaders. 
Reserves have prioritized the Teachers on the Estuary professional 
development opportunity for all 28 reserves that prepare the Next 
Generation workforce in key disciplines of science, technology, 
engineering and math (STEM education)--estimated to reach more than 
12,000 students annually through this program alone in addition to the 
83,000 reached by all education programs conducted by the reserves. 
Additionally reserves support their communities by providing technical 
training to local officials and support staff and residents about 
critical resource management issues such as impending hazards, storm 
water control, shoreline management, and habitat restoration: in 2014 
more than 12,000 decision makers participated in reserve training 
programs.
making coasts more resilient, supporting coastal economies, and having 
    direct positive impacts on communities and throughout the states
    Research reserves assist our coastal communities, commercial 
businesses and industries through enhanced coastal resiliency in a 
changing environment. As severe weather events become more common, 
Federal, State, and local officials are recognizing that estuaries have 
the capacity to provide green resilience infrastructure. Through the 
reserves, NOAA can tailor science and management practices to enable 
local planners to use estuarine habitat as a tool for resilience and 
adaptation. The increase to the NERRS operation funds by $2.6 million 
above the administration's request is essential to supporting coastal 
economies and impacting States and their communities.
  --The research reserves' operations that include existing high-
        quality jobs and student internship opportunities, as well as 
        service delivery in 28 communities will be improved through 
        modest additional appropriations by enhanced monitoring 
        technology responsive to changing environments and increased 
        educational efficiency by providing best-practices professional 
        development with decision-maker training and education programs 
        such as Teachers on the Estuary.
  --Each research reserve will leverage additional State, local, and 
        private funding to their individual States, and will provide 
        vital local trainings for decision makers, researchers, 
        students and teachers that generates a more resilient coast 
        through improved access to stakeholder driven research, 
        engaging place-based education and information needs.
  --With adequate funding, essential water quality data collected by 
        the research reserves will be made available to entities such 
        as local commercial businesses, industries and government 
        entities who rely upon it via updated monitoring equipment and 
        real-time telemetry technology.
    Investments in the NERRS are dollar-smart because funding for the 
program is matched by the States and leveraged significantly, resulting 
in an average of more than five other local and State partners 
contributing to the work at each reserve. In addition, the program 
significantly benefits from volunteers that are engaged in habitat 
restoration, citizen science and education which offset operation costs 
at reserves by donating thousands of hours. Annually, volunteers 
contribute more than 100,000 hours to the NERRS with an estimated value 
of over $2.2 million. Funding of $23.9 million for the NERRS would be a 
minimal level to provide each reserve with the necessary funding to 
insure that cuts to the States as well as to existing core programs and 
services do not occur.
nerrs procurement, acquisition, and construction and the bay-watershed 
                         education and training
    The NERRS Procurement, Acquisition, and Construction (PAC) funding 
is designated for land conservation, through acquisition of priority 
lands, and essential facilities construction and upgrades. This 
competitive funding program is matched by State funds and has resulted 
in not only the preservation of critical coastal lands as described 
above, but also in the increase of construction jobs. For example NERRS 
creates more than 60 jobs for each $1 million of Federal construction 
(PAC) money spent. In addition, NERRS leveraged investments of more 
than $115 million to purchase over 30,000 acres of coastal property 
over the last 12 years.
    Second, within the budget request for NOAA, the administration is 
again proposing the elimination of funding for the Bay-Watershed 
Education and Training (B-WET) regional programs--a reduction of $7.2 
million in funding. The rationale provided for program reductions is 
misleading in stating that NOAA education experiences will continue to 
be provided by programs including the NERRS. Where States are eligible 
for B-WET funding, reserves are able to increase their educational 
capacity by as much as 50 percent, as documented in the Chesapeake Bay 
NERR (VA) for example. The B-WET regional program funding is money that 
is spent in addition to the annual NERRS money invested in the 
education programs. The NERRS educate more than 83,000 children 
annually. NERRA strongly opposes the cut of B-WET regional programs and 
any of the other NOAA STEM educational programs.
                               conclusion
    NERRA greatly appreciates the past support the subcommittee has 
provided. This support is critical to sustain and increase the economic 
viability of coastal and estuary-based industries.
    With NERRA's fiscal year 2016 request of $23.9 million for the 
NERRS Operations and $1.7 million for NERRS PAC, the program will be 
able to maintain delivery of credible scientific research and 
translation of that research so as to contribute to the resiliency of 
the natural and built communities and that yields a high rate of return 
to the 28 reserves around the country. We urge the subcommittee to 
support this request, and to restore funding for the B-WET regional 
programs.
    Thank you for the opportunity to present these remarks. On behalf 
of NERRA, I would be happy to answer questions or provide additional 
information to the subcommittee.
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
    The National Marine Sanctuary Foundation (NMSF) works with Congress 
and the National Oceanic and Atmospheric Administration (NOAA) to 
connect fellow citizens to the underwater places that define the 
American ocean--the National Marine Sanctuary System. We remain 
concerned that NOAA's Office of National Marine Sanctuaries (ONMS) has 
not received sufficient appropriations for several budget cycles. 
Recognizing the economic growth and job creation benefits provided by 
sanctuaries, NMSF respectfully requests the subcommittee remedy this 
situation by appropriating:
  --$55 million to the Sanctuaries and Marine Protected Areas Base, 
        within NOAA's Operations, Research, and Facilities account; and
  --$5.5 million to the National Marine Sanctuary Program--
        Construction/Acquisition Base, within NOAA's Procurement, 
        Acquisition, and Construction account.
    Joining NMSF in this request is a national network of community-
based, non-profit organizations that support sites within the sanctuary 
system. On behalf of their members, the Cordell Marine Sanctuary 
Foundation (California), Farallones Marine Sanctuary Association 
(California), Friends of Thunder Bay National Marine Sanctuary 
(Michigan), Gray's Reef National Marine Sanctuary Foundation (Georgia), 
Hawai`i National Marine Sanctuary Foundation (Hawaii), California 
Marine Sanctuary Foundation (California), and Sanctuary Friends 
Foundation of the Florida Keys (Florida) support funding the National 
Marine Sanctuary System at these levels (Appendix I).
    And with the opening of the sanctuary nomination process, 
communities nationwide are voicing their support for increased funding 
for the National Marine Sanctuary System.
    Despite a decade's worth of bipartisan support in both houses of 
Congress that sanctuaries warrant additional funds and the groundswell 
of public support, the President's fiscal year 2016 budget request 
continues a disturbing trend of underfunding the sanctuary program. 
While we recognize the challenges of providing increased funding in the 
current budget climate, we believe that it fails to address critical 
sanctuary contributions to job creation and economic growth.
  the national marine sanctuary system and noaa's office of national 
                           marine sanctuaries
    Encompassing over 170,000 square miles of marine and Great Lakes 
waters, the National Marine Sanctuary System includes 13 national 
marine sanctuaries and Papahanaumokuakea Marine National Monument. 
Sanctuaries protect vibrant ocean ecosystems, conserve essential 
habitat for endangered and commercially important marine species, and 
safeguard historical and cultural resources.
      national marine sanctuaries are unique and successful ocean 
                           conservation tools
    Generations of Americans have grown up, worked jobs, and supported 
their families on the waters of our national marine sanctuaries. Among 
all the statutes enacted by Congress to govern ocean resources, the 
National Marine Sanctuaries Act stands alone in terms of the 
comprehensiveness, community participation, transparency and balanced 
approach provided for all stakeholders. An independent legal analysis 
concluded that ``the National Marine Sanctuaries Act is the best 
existing mechanism available for preserving ocean ecosystems,'' due to 
sanctuaries' commitment to public participation, community engagement, 
and use of a place- and ecosystem-based approach.\1\
---------------------------------------------------------------------------
    \1\ Perkins Coie LLP. (2013). ``Area-Based Management of Marine 
Resources: A Comparative Analysis of the National Marine Sanctuaries 
Act and Other Federal and State Legal Authorities.'' Available: http://
www.nmsfocean.org/files/ABMReport.pdf.
---------------------------------------------------------------------------
    Unlike other ocean resource laws, the National Marine Sanctuaries 
Act protects nationally significant places and their natural, 
historical, and cultural riches. Experience shows that this approach is 
vital to maintaining the healthy seascapes that underpin our productive 
economies, supporting thousands of businesses while maintaining public 
access for recreation, science, exploration, and education.
     national marine sanctuaries are economic engines for coastal 
                              communities
    Sanctuaries foster economic growth, support jobs and businesses, 
generate billions of dollars in local revenue, preserve underwater and 
maritime treasures, and provide valuable public access for ocean 
recreation, research, exploration, and education. According to the 
National Ocean Economics Program, 70 percent of ocean and coastal 
employment in the tourism and recreation sector depend on visitor 
opportunities requiring clean beaches, clean water, and abundant fish 
and wildlife promoted by national marine sanctuaries.
    Because of strong ties to the local communities, businesses, and 
organizations, sanctuaries are able to heavily leverage private funds 
and contributions for taxpayer benefits, ensuring that the benefits of 
funding national marine sanctuaries far outweigh the Federal outlays 
that support them:
  --Over 64,000 jobs and $4.5 billion in GDP contributed annually from 
        the marine tourism and recreation sector in the two counties 
        adjacent to Florida Keys National Marine Sanctuary.\2\
---------------------------------------------------------------------------
    \2\ National Ocean Economics Program. (2011) ``Ocean Economy 
Data.'' Available: http://www.oceaneconomics.org.
---------------------------------------------------------------------------
  --Over $126 million in whale watching revenue and 600 jobs at 31 
        businesses resulting from less than $2 million invested in the 
        Stellwagen Bank National Marine Sanctuary off of 
        Massachusetts.\3\
---------------------------------------------------------------------------
    \3\ O'Connor, Simon et al (2009). Whale Watching Worldwide: tourism 
numbers, expenditures and expanding economic benefits, a special report 
from the International Fund for Animal Welfare. Prepared by Economists 
at Large. Available: http://www.ifaw.org/Publications/
Program_Publications/Whales/asset_upload_file841_55365.pdf.
---------------------------------------------------------------------------
  --2,100 jobs and a $291 million budget from marine science and 
        education at the Monterey Bay National Marine Sanctuary, more 
        than 100 times the $3 million investment by taxpayers.\4\
---------------------------------------------------------------------------
    \4\ Monterey Bay Crescent Ocean Research Consortium. (2012) ``Major 
Marine Sciences Facilities in the Monterey Bay Crescent-2012.'' 
Available: http://web.me.com/paduan/mbcorc/Membership_Info_files/
MontereyBayLabs2012-2.pdf.
---------------------------------------------------------------------------
  --Over half (58 percent) of visitors to Alpena, Michigan came to 
        visit Thunder Bay National Marine Sanctuary, which is the 
        region's most popular attraction, boasting nearly 100,000 
        visitors per year.\5\
---------------------------------------------------------------------------
    \5\ Source: Molnar, Lawrence. 2013. ``Economic Impact Analysis for 
The National Oceanic and Atmospheric Administration, Thunder Bay 
National Marine Sanctuary, Final Report.'' Ann Arbor, Michigan: 
Institute for Research on Labor, Employment, and the Economy, 
University of Michigan (July). Available: http://irlee.umich.edu/
Publications/Docs/ThunderBayNMS_
FinalReport.pdf.
---------------------------------------------------------------------------
    national marine sanctuaries start and stay in local communities
    Public participation is a hallmark of the sanctuary program. From 
the sanctuary nomination process to day-to-day management decisions, 
sanctuaries start and stay in local communities--underscoring ONMS's 
commitment to community leadership and engagement. Communities have a 
controlling influence on sanctuary priorities to ensure unique, local 
circumstances are addressed. Sanctuary rules and regulations are 
developed on a site-by-site basis, and, from the outset, sanctuaries 
are designed to accommodate multiple uses of the ocean.
    Sanctuaries are created by and for the people: citizens and 
communities around the Nation recognize the benefits of sanctuaries and 
express strong interest in establishing sanctuaries in their own 
waters.
  --Over 440 community representatives serve on Sanctuary Advisory 
        Councils with members from the fishing, tourism, and maritime 
        commerce industries; tribes, State and local government; and 
        scientists, educators, and conservationists to provide advice 
        to sanctuary superintendents on sanctuary operations.
  --Over 140,000 hours are contributed by local sanctuary volunteers 
        each year in areas of research, monitoring, enforcement, 
        education and outreach, and management advisory.
               national marine sanctuaries and education
    Through education and outreach programs, sanctuaries function as 
living classrooms that provide students with the knowledge and tools to 
act as responsible ocean stewards. Science, technology, engineering and 
mathematics (STEM) education programs are a key part of national marine 
sanctuaries mission. Eliminating important education infrastructure, 
such as NOAA Office of Education's Bay Watershed Education and Training 
(B-WET) and NOAA's Teacher at Sea program, hinders the ability to 
deliver meaningful watershed education initiatives in sanctuaries.
    We strongly encourage you to oppose any efforts to move or 
terminate the Dr. Nancy Foster Scholarship Program (NFSP). The direct 
connections between students and researchers in sanctuaries are 
critical for the effectiveness of the NFSP. While we support the 
administration's efforts to recognize efficiencies across STEM 
education initiatives, NFSP should remain administered by ONMS, as 
consistent with the National Marine Sanctuaries Act.
national marine sanctuaries' programmatic outlook under reduced fiscal 
                        year 2016 funding levels
    Funding decreases and level-funding have resulted in layoffs and 
cutbacks to mission critical sanctuary programs. A lack of funds may 
result in cuts to public access and recreation opportunities, reduced 
operations at visitor centers, cancellation of partnerships, a lack of 
contingency funding needed in case of emergencies like oil spills, and 
additional inoperable vessels. Of particular concern are proposals to 
reduce funding for necessary and ongoing renovation and construction 
projects.
    The potential impact of reducing sanctuary appropriations goes far 
beyond the individual sanctuaries themselves: limiting visitor center 
hours, eliminating research programs, and diminishing enforcement 
capacities prevents ONMS from fulfilling its statutory mandates, while 
also reducing the economic activity and job creation from which healthy 
communities benefit. Funding sanctuaries below NMSF's recommended 
levels could force the program to:
    Reduce public access and recreation opportunities for all 
Americans: Funding cuts risk the Florida Keys National Marine 
Sanctuary's 767 mooring buoys, which provide public access and 
recreational opportunities within the sanctuary while protecting coral 
reefs and shipwrecks from anchor damage.
    Cut visitor center hours: Sanctuary visitor centers act as a public 
face of NOAA to over 350,000 visitors per year, including Monterey Bay 
National Marine Sanctuary Exploration Center (California), Mokupapapa 
Discovery Center (Hawaii), Great Lakes Maritime Heritage Center 
(Michigan), and Florida Keys EcoDiscovery Center (Florida).
    Cancel education and outreach programs that leverage private funds: 
Reduced funding jeopardizes education and outreach activities on the 
water, at sanctuaries and visitor centers, and in classrooms.
  noaa needs sufficient funds to fulfill its responsibilities to the 
                            american people
    We strongly support the Friends of NOAA Coalition request to fund 
the agency at no less than $6 billion in fiscal year 2016. From weather 
forecasts to fisheries management, NOAA provides decision makers with 
critical data, products, and services that promote and enhance the 
Nation's economy, security, environment, and quality of life. 
Insufficient funding will only serve to diminish the economic activity 
and job creation that is successfully revitalizing communities across 
America.

                                              Jason Patlis,
                                                 President and CEO.

                               APPENDIX I

                                                    March 18, 2015.

 
 
 
Hon. Richard C. Shelby                      Hon. Barbara Mikulski
Chairman, Senate Appropriations             Vice Chairwoman, Senate
 Subcommittee on Commerce, Justice,          Appropriations Subcommittee
 Science, and Related Agencies               on Commerce, Justice,
SH-125 Hart Senate Office Building           Science, and Related
Washington, D.C. 20510                       Agencies
                                            SD-142 Dirksen Senate Office
                                             Building
                                            Washington, D.C. 20510
 


    Dear Chairman Shelby and Ranking Member Mikulski: As Congress 
begins negotiations on the fiscal year 2016 Commerce, Justice, Science, 
and Related Agencies appropriations bill, we respectfully request that 
you prioritize programmatic requests for:
  --Sanctuaries and Marine Protected Areas Base, within the National 
        Oceanic and Atmospheric Administration's (NOAA) Operations, 
        Research, and Facilities (ORF) account, at a level of $55 
        million; and
  --Marine Sanctuaries Construction Base, within NOAA's Procurement, 
        Acquisition, and Construction (PAC) account at a level of $5.5 
        million.
    Sanctuaries embody our Nation's commitment to conserve the best of 
our ocean, coasts, and Great Lakes. Through their comprehensive, highly 
participatory approach designed to accommodate multiple uses of our 
ocean, national marine sanctuaries foster economic growth, support jobs 
and businesses, generate billions of dollars in local revenues, 
preserve underwater and maritime treasures, and provide valuable public 
access for ocean recreation, research, exploration, and education.
    The American people have seen the benefits national marine 
sanctuaries provide for local communities and our Nation and they are 
voicing their support for sanctuaries. Communities nationwide are 
coming together to discuss how to protect the ocean, coasts, and Great 
Lakes by working with the existing sanctuaries and by nominating new 
sites through the sanctuary nomination process.
    Sanctuaries are a proven and successful conservation tool and the 
return on our investment in sanctuaries is simply too valuable to 
ignore. Because of the strong ties to the local communities, 
businesses, and organizations, sanctuaries have been able to heavily 
leverage private funds and contributions for taxpayer benefits. 
However, diminishing budgets will force ONMS to reduce economic 
opportunities, close visitor's centers, cancel collaborative 
partnerships with museums and universities, terminate education and 
research initiatives, and diminish enforcement capacities. In 
particular, the sanctuary visitor centers, facilities, and vessels 
supported by PAC funds anchor local tourism and recreation economies 
and enable ONMS to complete core research, education, and law 
enforcement missions that simply cannot be accomplished from land 
alone.
    We strongly urge you to remedy this situation by supporting an 
overall appropriation of no less than $60.5 million for sanctuaries in 
fiscal year 2016. Your support for national marine sanctuaries will 
send a powerful and necessary message about the economic growth and job 
creation benefits of healthy ocean and coastal resources, while 
simultaneously underscoring the continuing ecological and aesthetic 
value of America's underwater treasures.
    Thank you for your consideration of this request. We wish you all 
the best for the 114th Congress.

            Sincerely,

                    Jason Patlis, National Marine Sanctuary Foundation; 
                            Tom Lambert, Cordell Marine Sanctuary 
                            Foundation; Chris Kelley, Farallones Marine 
                            Sanctuary Association; Charles N. Wiesen, 
                            Friends of Thunder Bay National Marine 
                            Sanctuary; Chris Hines, Gray's Reef 
                            National Marine Sanctuary Foundation; 
                            Lynette Poncin, Hawai`i National Marine 
                            Sanctuary Foundation; Dennis J. Long, 
                            Monterey Bay and Channel Islands Sanctuary 
                            Foundation; George Neugent, Sanctuary 
                            Friends Foundation of the Florida Keys
                                 ______
                                 
     Prepared Statement of the National Weather Service Employees 
                              Organization
    The employees of the National Weather Service once again urge the 
subcommittee to reject the administration's proposals to eliminate 
funding for the Information Technology Officers (ITOs) at our Nation's 
122 Weather Forecast Offices, and to reduce funding for the development 
of the Advanced Weather Interactive Processing System, ``AWIPS 2.''
    As this subcommittee noted when rejecting an earlier proposal to 
eliminate the ITOs, the ``IT staff have proven to be valuable parts of 
the local weather forecast teams.'' Senate Report No. 112-158, at 31. 
But once again, the NOAA budget justification fails to explain how 24 
regionally based ITOs can, at a distance, handle the same workload 
performed by 122 employees who work at the site of the problem. No 
workload analysis has ever been conducted. This year's budget 
justification contains the same preposterous claim that the regional 
team approach will ``meet or exceed current service levels'' without 
any factual basis or prototyping. The proposal once again claims that 
``the current service delivery model has redundancies,'' but fails to 
identify a single one.
    The subcommittee has rejected such unsupported assurances in the 
past and has directed the agency to present any proposal to consolidate 
IT support only as part of a comprehensive plan for future NWS 
operations. In considering the fiscal year 2014 request, this 
subcommittee directed NOAA to provide a report that ``addresses 
potential consolidation of NWS IT staff in the context of an overall 
workforce staffing plan.'' Senate Report No. 113-78, at 38. In 
rejecting NOAA's request to eliminate the ITOs last year, this 
subcommittee wrote:

          This repeated request continues to ignore the subcommittee's 
        direction to provide perspective on how this proposal fits 
        within NWS's broader workforce and modernization plans. The 
        subcommittee also notes that NOAA has not provided the report 
        requested in fiscal year 2014 outlining a multi-phase plan for 
        consolidating NWS's information technology operations that 
        would streamline system configuration . . . while resulting in 
        no degradation of service.

    Senate Report No. 113-181, at 43. Astonishingly, NOAA has once 
again requested authority to eliminate the ITOs without providing the 
report or analysis that this subcommittee said was a prerequisite to 
its approval. As this year's NWS budget justification explains (at 39), 
the NWS has still not yet developed its IT consolidation plan and will 
not be ``developing a strategic staffing plan which will fully show the 
future of the NWS workforce'' until 2016. Between September 2010 and 
February 2015, the NWS reduced its non-supervisory workforce by 10 
percent, from 3877 to 3469, in an unplanned, random manner as vacancies 
arose. The subcommittee should not approve additional haphazard 
reductions in field staff.
    NWSEO has just obtained a copy of a ``Statement of Need'' authored 
by an ad hoc committee of Meteorologists-in-Charge (``MICs'') of 
numerous NWS Forecast Offices in 2013 and submitted to NWS management, 
explaining why the ITOs are essential to the operations of their 
offices and need to be retained. According the MICs, who are the senior 
supervisor at each forecast office, the ``READI Teams'' cannot 
adequately replace the ITOs:

          The READI team proposal is an admirable effort to reduce 
        agency overhead costs and looks promising on the surface, but 
        it also includes a large number of assumptions that have 
        already been proven faulty or ineffective during weather 
        situations affecting multiple sites. Having to rely on 
        emergency backup and remote support in lieu of local site 
        support is a recipe for disaster and one not worth the cost 
        savings.
                                *  *  *
          From our perspective, one cannot remove such a vital 
        individual from a unit and replace him with a remote staff 
        member (or members) tasked with serving multiple offices that 
        has no collaborative ties, relationship, or rapport with the 
        people, office or customers, and expect the kind of benefits 
        the ITO program has produced to date.
                                *  *  *
          Moving from a system of local ITO experts to a regional cadre 
        of ITO teams, no matter how skilled and prepared, will 
        undoubtedly result in slower response time and longer periods 
        of system down-time and lengthy site and system recovery.

    The MICs also noted that the ITOs are responsible for far more than 
keeping existing systems operational. ``[T]he ITO is a critical 
developer who is directly connected with the forecasters, end users, 
and core constituents. Due to this connection the position has been 
able to create successful applications with a positive and lasting 
impact on our agency.'' Below are four examples of software 
applications recently developed by ITOs that were customized to local 
weather conditions and customer needs.
    1. Last winter Diana Norgaard, the ITO at the Sterling Forecast 
Office (which services Northern Virginia, Maryland, DC and part of West 
Virginia) developed software applications that translated winter 
weather forecasts and models into graphic ``probabilistic'' forecasts 
of the chances of varying snow accumulation totals for approximately 
100 locations within the office's service area. She developed a Web 
page for display of these experimental forecast products, which can be 
found at www.weather/gov/lwx/winter. These new forecast products were 
so well received that Ms. Norgaard assisted in replicating them for the 
Philadelphia, New York and Boston Forecast Office Web sites this 
winter.
    2. After the January 2014 snowstorm that paralyzed the Atlanta 
highway network, the Georgia Department of Transportation installed 
road sensors around the metro Atlanta area and North Georgia. Steve 
Listemaa, the ITO at the Atlanta Forecast Office, worked with the 
vendor to ingest this data for display into the office's AWIPS system, 
which he then configured to produce road temperature forecasts. The 
graph below shows the observed road temperature data to the left of the 
vertical gray line, and forecast road temperature data to the right. 
The display was originally written by the ITO at the Tulsa Forecast 
Office, and Mr. Listemaa took that code and modified it for his 
office's needs.
    3. In Vermont, ice jams create a flood threat in late winter as 
river ice starts to break up; Montpelier was flooded as a result of 
such an ice jam in 1993. Chuck McGill, the ITO at the forecast office 
in Burlington, Vermont, wrote a series of software scripts that created 
a database for the office's hydrologist to use to log the locations of 
ice jams in their service area, and to quickly generate a Public 
Information Statement with this information.
    4. The NWS's Service Assessment of its response to the May 2013 
Moore, Oklahoma tornado noted that a local application developed by the 
ITO at the Norman Forecast Office was critical to FEMA's efforts:

          WFO Norman produced GIS [graphical information systems] 
        products showing a preliminary estimate of the likely tornado 
        track, which the office made available while the tornado was in 
        progress in Moore, Oklahoma. Meteorologist in Charge (MIC), 
        serving as the radar interpreter, worked with the Information 
        Technology Officer (ITO) to use a prototype local application 
        on AWIPS II, the AWIPS's next-generation software, to generate 
        the GIS files on AWIPS. The GIS files were emailed to the EMs 
        in affected regions and to the Southern Region Regional 
        Operations Center (SR ROC) and posted on social media. WFO 
        Norman used all available radar data and other information to 
        draw potential damage paths. The local application allowed the 
        meteorologists to select points, scan-by-scan, to identify 
        where a tornado was located. This process includes forecaster 
        interpretation in the analysis loop and is different and 
        separate from the rotation tracks products available from the 
        National Severe Storms Laboratory (NSSL). The Federal Emergency 
        Management Agency (FEMA) Director noted these products are 
        ``extremely valuable'' when integrated into FEMA's GIS 
        applications. These preliminary tracks allowed FEMA to identify 
        the impacted areas and determine resources that might be needed 
        for the recovery as much as 3-4 hours before resources were 
        requested . . .

          These GIS products saved FEMA 3-4 hours of response time and 
        helped FEMA staff determine the need for additional urban 
        search and rescue teams before local EMs formally requested 
        this assistance.

Service Assessment: May 2013 Oklahoma Tornadoes and Flash Flooding, pp. 
8-9 (NWS, January 2014).

    Regional IT teams cannot maintain from a distance the unique 
software applications and models previously designed by each office's 
ITOs and with which they are unfamiliar; and termination of the ITOs 
will eliminate the ability to design and build software applications 
and forecasting models customized to each office's unique climate and 
user needs.
    In its fiscal year 2016 budget justification, the NWS promises that 
it will reduce ITO staffing through attrition, but that is not possible 
if funding for the ITOs is abruptly terminated at the beginning of the 
upcoming fiscal year. The NWS incorrectly claims that many of the ITOs 
can qualify for other NWS positions, such as a meteorologist. Although 
about one-half of the ITOs were meteorologists before being selected as 
ITOs, it is unlikely that they would qualify to return to the 
meteorologist jobs series because the educational qualification 
standards for meteorologists changed in 1998. Only those current 
meteorologists who were hired before that date and who have been 
continuously employed in the meteorologist job series are grandfathered 
under the prior qualification standards. (See NOAA Human Resources 
Guidance Bulletin #FY14-004 (October 23, 2014).
    NWSEO also opposes NOAA's proposal to reduce $1.5 million in 
funding for development and implementation of the next generation of 
the Advanced Weather Interactive Processing System. As noted in the 
agency's Budget Justification, at 73, the ``NWS will be limited in 
providing future tools and capabilities which meteorologists/
hydrologists use in situational awareness for warning/forecast 
preparation'' as a result of this reduction, and ``[t]he development of 
robust, efficient service backup capabilities to support local needs as 
well as COOP activities will also be deferred.''
    The most troubling impact of this reduction will be the deferral of 
an updated AWIPS ``Weather Event Simulator'' or ``WES.'' WES is a 
training simulator that allows forecasters to replay severe weather 
events from archived data as case studies as if they were occurring in 
real-time. Funding for training at the National Weather Service has 
already fallen to just one-half of 1 percent of the agency's budget.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Thank you for the opportunity to comment on the fiscal year 2016 
appropriations for the National Oceanic and Atmospheric Administration 
(NOAA). The Nature Conservancy is a non-profit conservation 
organization working around the world to protect ecologically important 
lands and waters for both people and nature. As the Nation enters the 
fiscal year 2016 budget cycle and another year of fiscal challenges, 
The Nature Conservancy recognizes the need for fiscal restraint and 
reiterates our concern that natural resource stewardship programs 
should not bear a disproportionate share of cuts in this budget. We 
believe the budget levels The Nature Conservancy supports represent a 
prudent investment in our country's future. It is an investment that 
not only helps NOAA achieve its most critical missions by catalyzing 
local and regional action, but also reduces risk and saves money based 
on tangible economic and societal benefits that natural resources 
provide.
                   national marine fisheries service
Fisheries and Ecosystem Science Programs and Services.--The Nature 
Conservancy supports the President's request of $146.317 million.

    There is a high correlation between the good information about the 
status of a fish stock and the effectiveness of management. Systems for 
collecting fishery data tend to be paper-based, slow, expensive and 
prone to errors and gaps. On-board video monitoring has been piloted 
but has yet to be implemented in any U.S. fisheries and the 
administration's proposed $5.596 million increase for Electronic 
Monitoring and Reporting will help move these efforts beyond pilots to 
implementation through funding purchase and maintenance of hardware and 
software and processing of collected data. Priority should be given to 
those fisheries across the country that have already piloted these 
efforts. Also key is improving our understanding of the ecological and 
economic connections between fisheries and nearshore habitats. The 
administration's proposed $5 million increase for Ecosystem-based 
Solutions for Fisheries Management will improve our understanding of 
the value of ecosystem services and develop the models and tools to 
incorporate this information into habitat restoration plans and 
fisheries management actions.

Fisheries Management Programs and Services.--The Nature Conservancy 
supports the President's request of $128.367 million.

    NOAA Fisheries has made important strides in addressing these 
challenges and strengthening fisheries management; however, much more 
needs to be done. To recover fish stocks so that they provide food and 
jobs to struggling fishermen now and in the future, we need to reduce 
destructive fishing practices, restore coastal habitats that produce 
fish, and support the efforts of fishermen and fishing communities and 
do so in a collaborative way. The Conservancy supports the President's 
request of $128.367 million and highlights two important program 
increases. The proposed increase of $1.45 million within this line will 
be used to develop and implement clear procedures and guidance for the 
use of electronic monitoring. This will include review of pilot project 
information, regional implementation plans, and coordination with 
stakeholders. Catch shares give participating fishermen a stake in the 
benefits of a well-managed fishery and align the incentives for 
resource stewardship with the natural incentive for fishermen to 
increase their earnings with a sustainable business model. Transition 
to these systems is difficult and the modest $2.216 million proposed 
increase will help NOAA get the design and implementation of these new 
catch share programs right by engaging fishing communities.

Habitat Management and Restoration.--The Nature Conservancy supports 
the President's request of $57.885 million.

    Coastal wetlands and nearshore waters produce the fish and 
shellfish that feed America. The health of these places is essential to 
the economic and social well-being of those who live, work, and 
recreate in coastal communities. Additionally the restoration and 
protection of coastal resources help to provide flood control and 
prevent erosion to protect our communities from storm surges. Through 
the Community-based Restoration Program and the Habitat Blueprint 
initiative, The Nature Conservancy works closely with NOAA to restore 
the health of degraded habitats in places and ways that benefit not 
just local marine life, but communities and coastal economies as well. 
Project funds are awarded on a competitive basis and typically leverage 
the resources and capacity of multiple partners. This work enhances our 
understanding of the connections between fisheries productivity and 
habitat, measures the effectiveness of conservation and restoration 
activities, and applies those lessons to improve future efforts. The 
administration has also requested an important $3.5 million increase to 
enhance NOAA's capacity to for consultations on and implementation of 
Essential Fish Habitat. The Regional Fishery Management Councils 
address fishing impacts on these areas, and NOAA must have sufficient 
capacity to provide technical assistance to the Councils and to work 
with Federal agencies to avoid, minimize, and mitigate the impacts of 
their actions on these important fishery habitats.

Pacific Coastal Salmon Recovery Fund.--The Nature Conservancy supports 
maintaining the fiscal year 2015 level of funding of $65 million, $7 
million above the President's requested amount.

    The Pacific Coast Salmon Recovery Fund (PCSRF) is the most critical 
Federal program addressing major threats to Pacific salmon so that 
these fish can continue to sustain culture, economies, recreation, and 
ecosystem health. PCSRF funding is tailored for each State, 
competitively awarded based on merit, and has funded hundreds of 
successful, on-the-ground salmon conservation efforts. PCSRF invests in 
cooperative efforts to conserve species under NOAA's jurisdiction, and 
projects are matched at a 3:1 ratio (Federal/non-Federal). Notably, the 
PCSRF has catalyzed thousands of partnerships among Federal, State, 
local, and tribal governments, and conservation, business, and 
community organizations. The Nature Conservancy urges sustaining the 
fiscal year 2015 enacted level of $65 million.

Fisheries Data Collections, Surveys and Assessments.--The Nature 
Conservancy supports the President's request of $163.251 million.

    Limited or poor quality information on the status of fishery stocks 
undermines the effectiveness of fishery management and can erode 
political support for conservation measures. Accurate and timely stock 
assessments are essential for the sound management of fisheries and the 
sustainability of fishing resources. The $2.815 million proposed 
increase to Expand Annual Stock Assessments will help the agency 
prioritize assessments, determine what level of assessments are needed 
and, where to appropriately incorporate ecosystem linkages--such as 
climate, habitat, multispecies, socioeconomic factors.

Marine Mammals, Sea Turtles, and Other Species.--The Nature Conservancy 
supports the President's request of $145.71 million.

    Through this budget line, NOAA awards competitive grants to States 
and tribes to support conservation actions that contribute to recovery, 
or have direct conservation benefits for, listed species, recently de-
listed species, and candidate species that reside within that State. 
NOAA's proposed $17 million increase for Species Recovery Grants, 
including $3.2 million for the 20 newly-listed coral species, will 
allow the agency to expand partnerships to address the growing number 
of listed species and allow for larger, ecosystem-level scale recovery 
efforts The Nature Conservancy works with State agency partners to 
restore endangered species and monitor the results of these efforts. 
These grants are essential for having a direct benefit to ``on the 
water'' restoration efforts. Additional listed species and emerging 
challenges to recovery has increased the number and complexity of 
NOAA's consultation and permitting requirements under the Endangered 
Species Act and Marine Mammal Protection Act. The proposed $13.23 
million to Increase Consultation Capacity will aid NOAA's ability to 
complete these requirements in a timely manner.

ESA Salmon.--The Nature Conservancy supports the President's request of 
$68.501 million.

    Recovery of listed Atlantic and Pacific salmon provide distinct 
challenges. NOAA's cooperative efforts with States, tribes, and other 
partners such as The Nature Conservancy help to improve our 
understanding of and ability to protect listed salmon and the habitats 
that sustain them. The $1.301 million proposed increase to base funding 
will support the design and implementation of fish passage projects 
critical to the recovery of Atlantic salmon.
                         national ocean service
Coastal Management Grants.--The Nature Conservancy supports the 
President's request of $116.146 million.

    Our Nation's coastal areas are vital to our economy and our way of 
life. The narrow area along our coasts is home to approximately 163 
million people and coastal economies contribute over 45 percent of our 
gross domestic product. This concentration of activity exposes 
communities and businesses to risk from coastal storms, changing ocean 
and economic conditions, and user conflicts. The $45 million proposed 
increase in competitively awarded Regional Coastal Resilience Grants 
will provide the resources and tools to build coastal resilience to 
avoid costly Federal disaster assistance and sustain healthy fisheries, 
maintain robust tourism opportunities, provide for increased shipping 
demands, and other coastal industries. The Nature Conservancy has 
worked with NOAA through the Digital Coast partnership to develop 
decision support tools and techniques that help communities understand 
and reduce risk and build resilience. Sharing data across Federal, 
State, and tribal agencies, industry, and with non-governmental 
organizations has increased our collective ability to understand and 
incorporate into decisionmaking complex coastal economic, social, and 
ecological needs. Through the restoration of coastal habitats and use 
of natural infrastructure, we can improve communities' ability to 
minimize storm damage and improve fisheries productivity, water 
quality, and recreational opportunities.

Coral Reef Program.--The Nature Conservancy supports no less than the 
President's request of $26.1 million.

    The decline of coral reefs has significant social, economic, and 
ecological impacts on people and communities in the United States and 
around the world. The Conservancy works with NOAA's Coral Reef 
Conservation Program under a competitively awarded, multi-year 
cooperative agreement to address the top threats to coral reef 
ecosystems: climate change, overfishing, and land-based sources of 
pollution. Together we develop place-based strategies, measure the 
effectiveness of management efforts, and build capacity among reef 
managers globally.

Coastal Zone Management and Services.--The Nature Conservancy supports 
the President's request of $54.144 million.

    NOAA's data, research, and monitoring of coastal and marine systems 
provide data and decision-support tools that inform the safe operations 
of industry, prioritize habitats for restoration, and advance science-
based management decisions. The administration has requested a $5 
million increase for Ecosystem-based Solutions for Coastal Resilience. 
Improving our ability to incorporate natural infrastructure into 
coastal protection efforts before and after storms can help communities 
achieve multiple benefits such as improving fisheries productivity and 
coastal water quality. The proposed $4.78 million increase for Capacity 
to Respond to Extreme Events will improve modeling and observations and 
increased technical assistance to coastal communities to help reduce 
their risk to coastal storms and extreme weather, ultimately saving 
Federal disaster response and recovery expenditures. This will be 
further leverage by the proposed $2 million increase for the 
AmeriCorps' Resilience Corps Pilot Program Training and Technical 
Assistance. Decision support tools and increasing capacity within 
communities are cost-effective mechanisms to enable the implementation 
of resilience strategies.

National Estuarine Research Reserve System.--The Nature Conservancy 
supports no less than the President's request of $21.3 million.

    The National Estuarine Research Reserve System (NERRS) partners 
with States and territories to ensure long-term education, stewardship, 
and research on estuarine habitats. Atlantic, Gulf, Pacific, Caribbean 
and Great Lakes reserves advance knowledge and stewardship of estuaries 
and serve as a scientific foundation for coastal management decisions.

Sanctuaries and Marine Protected Areas.--The Nature Conservancy 
supports no less than the President's request of $48.3 million.

    National marine sanctuaries support economic growth and hundreds of 
coastal businesses in sanctuary communities, preserve vibrant 
underwater and maritime treasures for Americans to enjoy, and provide 
critical public access for ocean recreation, research, and education. 
Investment in these sites does more than simply protect discrete areas 
of the ocean; it places a down payment for the many Americans whose 
livelihoods are dependent on a healthy ocean and coasts.
    Thank you for this opportunity to share The Nature Conservancy's 
priorities. We would be pleased to provide the subcommittee with 
additional information on any of the Conservancy's activities.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and members of the subcommittee, my name is Lorraine 
Loomis and I am the Chairwoman of the Northwest Indian Fisheries 
Commission (NWIFC). The NWIFC is comprised of the 20 tribes that are 
party to the United States v. Washington \1\ (U.S. v. Washington). We 
are providing testimony for the record in support of funding for the 
National Oceanic and Atmospheric Administration (NOAA)/National Marine 
Fisheries Service (NMFS) for the fiscal year 2016 appropriations.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
          summary of fiscal year 2016 appropriations requests
  --$110.0 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
        NMFS).
  --$13.8 million for the Pacific Salmon Treaty, including the 
        additional $3.0 million for the 2008 Chinook Salmon Agreement 
        (NOAA/NMFS).
  --$18.9 million for the Mitchell Act Hatchery Program (NOAA/NMFS).

    We are generally pleased with the President's fiscal year 2016 
budget request but much more needs to be done. It promotes a strong 
stewardship in sustaining our vital natural resources. The natural 
resources that we depend on are vital to our tribal communities, 
economies and jobs. The land and the many natural resources we depend 
on are a necessity for our communities to thrive.
    The western Washington treaty tribes brought to the Federal 
Government our Treaty Rights at Risk (TRAR) initiative almost 4 years 
ago. The continued loss and degradation of the salmon habitat continues 
to hamper our salmon recovery efforts, which threatens our tribal 
treaty rights. The Federal Government has the obligation and authority 
to ensure both the recovery of salmon and the protection of tribal 
treaty rights. These constitutionally protected treaties, the Federal 
trust responsibility and extensive case law, including the U.S. v. 
Washington decision, all support the role of tribes as natural resource 
managers, both on and off reservation. While our TRAR has garnered a 
lot of discussion, it has been slow to create any change in the manner 
in which Federal agencies operate. It has not been enough to change the 
trajectory of salmon recovery in our region from a negative to a 
positive direction.
    Salmon has always been the foundation of tribal cultures, 
traditions and economies in western Washington. Wild salmon and their 
habitat continue to decline despite massive reductions in harvest and a 
significant investment in salmon recovery and habitat restoration. 
However, fulfilling these Federal obligations is not an option and 
these investments must continue as we work to recover the salmon 
populations.
    In Washington State, we have developed a successful co-management 
partnership between the Federal, State and tribal governments. Tribes 
seize every opportunity to coordinate with other governments and non-
governmental entities to avoid duplication, maximize positive impacts, 
and emphasize the application of ecosystem-based management. This 
collaboration has helped us to deal with many problems, and as 
sovereign nations, we will continue to participate in resource recovery 
and habitat restoration with the State of Washington and the Federal 
Government because we understand the great value of such cooperation.
    Hatchery production also continues to be a critical component in 
fulfilling these treaty-reserved rights and play a vital role in the 
management of our fisheries. In addition to our habitat concerns, the 
hatchery systems in the State of Washington are under attack by third 
party litigation due to the lack of approved Hatchery and Genetic 
Management Plans (HGMPs) under the ESA. This was realized last fall 
with legal action that prevented the release of one million hatchery 
steelhead in western Washington. The problem will continue until the 
National Marine Fisheries Service has completed its ESA determinations. 
Resources and immediate action is needed to address the current backlog 
of HGMPs so that Indian and non-Indian fishermen and our communities 
are not further impacted by loss of their fisheries.
    To address these many concerns adequate funding is necessary for 
hatchery production and salmon habitat restoration. The programs we 
support provide the necessary salmon production and assists tribes in 
the implementation of salmon recovery plans that moves us in the 
direction of achieving the recovery goals, which is a direct request in 
our TRAR initiative. As Congress considers the fiscal year 2016 budget, 
we ask you to consider our requests that are further described below.
                       justification of requests
Provide $110.0 million for NOAA Pacific Coastal Salmon Recovery Fund
    We respectfully request $110.0 million, an increase of $52.0 
million over the President's request. The fiscal year 2015 
appropriations provided a total of $65.0 million. These funds have 
decreased from the peak of $110.0 million in fiscal year 2002. We 
continue to support the original congressional intent of these funds 
that would enable the Federal Government to fulfill its obligations to 
salmon recovery and the treaty fishing rights of the tribes.
    The PCSRF is a multi-State, multi-tribe program established by 
Congress in fiscal year 2000 with a primary goal to help recover wild 
salmon throughout the Pacific coast region. The PCSRF supports projects 
that restore, conserve and protect Pacific salmon and steelhead and 
their habitats. PCSRF is making a significant contribution to the 
recovery of wild salmon throughout the region by financially supporting 
and leveraging local and regional efforts. Salmon restoration projects 
not only benefits fish populations and their habitat but provides much 
needed jobs for the local communities.
    The tribes' overall goal in the PCSRF program is to restore wild 
salmon populations while the key objective is to protect and restore 
important habitat in Puget Sound and along the Washington coast. This 
is essential for western Washington tribes to exercise their treaty-
reserved fishing rights consistent with U.S. v. Washington and Hoh v. 
Baldrige \2\ and also promotes the recovery of ESA listed species and 
other salmon populations. The tribes have used these funds to support 
the scientific salmon recovery approach that makes this program so 
unique and important.
---------------------------------------------------------------------------
    \2\ Hoh v. Baldrige--A Federal court ruling that required fisheries 
management on a river-by-river basis.
---------------------------------------------------------------------------
    It is for these reasons that the tribes strongly support the PCSRF. 
We will continue to seek an equitable allocation to the NWIFC and 
member tribes through the NOAA Fisheries funding process. These funds 
support policy and technical capacities within tribal resources 
management to plan, implement, and monitor recovery activities. In 
addition to watershed restoration and salmon recovery work they also 
help fund fish hatchery reform efforts to allow for the exercise of 
tribal treaty fishing rights.
Provide $13.8 million for NOAA Pacific Salmon Treaty, including the 
        additional $3.0 million associated with the 2008 Chinook Salmon 
        Agreement
    We support the Pacific Salmon Commission (PSC)/U.S. Section's 
request of $13.8 million, an increase of $2.5 million over the 
President's request. The fiscal year 2015 appropriations provided a 
total of $11.3 million. We also support as part of their request $1.5 
million for the Puget Sound Critical Stock Augmentation Program and 
$1.5 million for the Coded Wire Tag (CWT) Program as required by the 
2008 PST Chinook Annex Agreement.
    The Puget Sound Critical Stock funding covers the operation and 
maintenance costs for the hatchery augmentation programs established 
for Dungeness, Stillaguamish, and Nooksack Chinook. These hatchery 
efforts were initiated in connection with the 2008 Chinook Agreement of 
the US/Canada Pacific Salmon Treaty (PST) as the conservation needs of 
these populations could not be met by harvest restriction actions 
alone. The CWT funding allows for continued maintenance and efficiency 
improvements of the coast-wide CWT program. This is essential for the 
sustainability and management of our fisheries resources. Currently 
there is not enough funding allocated to carry out the requirements of 
the PST, which causes the PSC to not be able to perform all of its 
responsibilities required in the treaty and its Chinook and coho 
annexes. As co-managers of the fishery resources in western Washington, 
tribal participation in implementing the PST is critical to achieve the 
goals of the treaty to protect, share and restore salmon resources.
    The PST was implemented in 1985 through the cooperative efforts of 
tribal, State, U.S. and Canadian Governments, and sport and commercial 
fishing interests. The PSC was created by the United States and Canada 
to implement the treaty, which was most recently updated in 2008. The 
PSC establishes fishery regimes, develops management recommendations, 
assesses each country's performance and compliance with the treaty, and 
is the forum for all entities to work towards reaching an agreement on 
mutual fisheries issues. As co-managers of the fishery resources in 
western Washington, tribal participation in implementing the PST is 
critical to achieve the goals of the treaty to protect, share and 
restore salmon resources.
    Adult salmon returning to most western Washington streams migrate 
through U.S. and Canadian waters and are harvested by fisherman from 
both countries. For years, there were no restrictions on the 
interception of returning salmon by fishermen of neighboring countries. 
The 2008 update of the treaty gave additional protection to weak runs 
of Chinook salmon returning to Puget Sound rivers. The update also 
provided compensation to Alaskan fishermen for lost fishing 
opportunities, while also funding habitat restoration in the Puget 
Sound region.
Provide $18.9 million for NOAA Mitchell Act Hatchery Program
    We respectfully request $18.9 million for the Mitchell Act Hatchery 
Program, an increase of $3.0 million over the President's request. The 
fiscal year 2015 appropriations provided a total of $18.9 million. 
Funding is provided for the operation of 17 fish hatcheries that 
release between 50 and 60 million juvenile salmon and steelhead in 
Oregon, Washington, and Idaho. This program has historically provided 
fish production for tribal treaty fisheries in the Columbia River, and 
for ocean and in-river recreational and commercial fisheries.
    It is especially important to us in that they provide significant 
fish production for harvest opportunities for tribal treaty fisheries 
along the Washington coast. Providing adequate funding to maintain the 
current production levels from the Mitchell Act hatcheries on the 
Columbia River is important as this production not only supports 
coastal salmon fisheries but dampens the impact of Canadian fisheries 
under the terms of the PST Chinook Annex on Puget Sound and coastal 
stocks.
    Overall production from these hatcheries has been reduced from more 
than 100 million to fewer than 60 million fish. This hatchery 
production is intended to mitigate for the lost production caused by 
the hydropower dam system on the Columbia River. Substantial changes 
have been made, and will continue to be required of the Mitchell Act 
Program, due to the application of the ESA throughout the Columbia 
Basin. Adequate funding will also allow these facilities to be 
retrofitted to meet current ESA standards as identified through the 
hatchery reform process.
                               conclusion
    The treaties and the treaty-reserved right to harvest are the 
supreme law of the land under the U.S. Constitution. Some of the treaty 
tribes have had to give up even their most basic ceremonial and 
subsistence fisheries, which is unacceptable. It is critically 
important for Congress and the Federal Government to do even more to 
coordinate their efforts with State and tribal governments. We need 
your continued support in upholding the treaty obligations and 
fulfilling the trust responsibility of those treaties in order for 
tribes to be successful.
    We respectfully urge you to continue to support our efforts to 
protect and restore our great natural heritage that in turn will 
provide for thriving economies. Thank you.
                                 ______
                                 
                Prepared Statement of Ocean Conservancy
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2016 funding for NOAA. Ocean 
Conservancy has worked for over 40 years to address ocean threats 
through sound, practical policies that protect our ocean and improve 
our lives. We support funding for NOAA at or above the President's 
request of $6 billion, and we support balanced investments across 
NOAA's atmospheric and oceanic missions. We recommend the following 
funding levels for specific programs.


----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year 2016
     Account, Program or Activity          Fiscal year 2015        President's budget     Fiscal year 2016 Ocean
                                               enacted                  request            Conservancy request
----------------------------------------------------------------------------------------------------------------
OPERATIONS RESEARCH AND FACILITIES
National Ocean Service:
  Navigation, Observations, and        $189.206 million.......  $195.5 million.........  $195.5 million
   Positioning.
  Coastal Science, Assessment,
   Response, and Restoration:
    Marine Debris....................             --                       --            $8 million
    Arctic Spill Preparedness........             --            $1.3 million increase..  $1.3 million increase
National Marine Fisheries Service:
  Marine Mammals, Sea Turtles, and     $115.219 million.......  $145.71 million........  $147.61 million
   Other Species.
  Fisheries and Ecosystem Science      $132.189 million.......  $146.317 million.......  $146.317 million
   Programs and Services.
    Electronic Monitoring and                     --            $5.596 million increase  $5.596 million increase
     Reporting.
    Distributed Biological Obs.                   --            $879,000 increase......  $879,000 increase
     (Arctic).
  Fisheries Data Collections, Surveys  $158.271 million.......  $163.251 million.......  $163.251 million
   and Assessments.
  Fisheries Management Programs and    $120.458 million.......  $128.367 million.......  $128.367 million
   Services.
    Management and Reg. Support for               --            $1.45 million increase.  $1.45 million increase
     Electronic Technologies.
Office of Oceanic and Atmospheric
 Research:
  Integrated Ocean Acidification.....  $8.5 million...........  $30.005 million........  $30.005 million
  Regional Climate Data and            $38 million............  $52.437 million........  $52.437 million
   Information.
    NOAA Arctic Research Program.....             --            $2.190 million increase  $2.190 million increase
Program Support:
  Marine Operations and Maintenance..  $175 million...........  $178.838 million.......  $178.838 million
----------------------------------------------------------------------------------------------------------------

                    preparing for a changing arctic
    We support the three funding increases requested by NOAA in fiscal 
year 2016 that make investments we need now to be prepared for economic 
and ecological challenges of a changing Arctic. We also support 
continued funding for oceanographic charting of Arctic waters. Ocean 
Conservancy supported NOAA's requested increases last fiscal year as 
well, but the funding was not appropriated. Considering the U.S. 
chairmanship of the Arctic Council beginning this calendar year, it is 
even more important now that these investments be made to demonstrate 
U.S. leadership in the Arctic.

  --Navigation, Observations and Position: $195.5 million

       The Coast Guard's recently announced continuation and expansion 
of its Port Access Route Study in the Chukchi Sea, Bering Strait, and 
Bering Sea points to the importance of up-to-date Arctic charts. In 
addition, NOAA's Arctic Vision and Strategy notes that confidence in 
the nautical charts of the Arctic region is ``extremely low.'' NOAA has 
made progress in recent years with new or updated charts for Kotzebue 
Harbor, Bering Strait North, and DeLong Mountain Terminal, but Arctic 
waters are vast and it will take steady and consistent effort to 
complete the work of modernizing Arctic nautical charts.

  --Arctic Spill Preparedness: $1.3 million increase

       Currently, there is no demonstrated technology, technique or 
infrastructure to respond effectively to an oil spill in icy Arctic 
waters. Funding to support improved models, increased capacity and 
coordination, and research is urgently needed. Along with a 
precautionary approach, these efforts can guide decisions about whether 
development activities should occur in the Arctic and, if so, when, 
where, and how they occur.

  --Distributed Biological Observatory (Arctic): $879,000 increase

       The Arctic marine ecosystem provides irreplaceable benefits, but 
our understanding of this ecosystem is hampered by a lack of reliable 
baseline data, critical science gaps, and limited documentation and 
application/use of traditional knowledge. Funding will provide much-
needed support for collection of baseline data and analysis of 
ecosystem functions in Arctic marine waters so we better understand 
Arctic fisheries and other valuable ecosystem services. Without this 
better understanding our ability to make informed decisions is 
compromised.

  --NOAA Arctic Research Program: $2.19 million increase

       Temperatures in the Arctic are warming at twice the rate of the 
global average and seasonal sea ice is diminishing rapidly. Funding to 
expand and improve NOAA's Arctic Observing Network is critical to track 
and understand these profound changes and provide products that inform 
industries and decision-makers and support our ability to adapt.
                       marine debris: $8 million
    Marine debris has become one of the most pervasive pollution 
problems facing the world's oceans, coasts and waterways. Research has 
demonstrated that persistent debris has serious effects on the marine 
environment, wildlife and the economy. Marine debris causes wildlife 
entanglement, ghost fishing, destruction of habitat, navigational 
hazards, vessel damage and pollutes coastal areas. There is also 
increasing concern over the threat of microplastics to the marine food 
web and potentially humans. NOAA's Marine Debris program supports 
existing monitoring and research efforts to better understand 
accumulation rates of debris and debris source and sink dynamics. The 
program catalyzes scientific research efforts to quantify the direct 
and indirect economic impacts caused by marine debris on coastal 
communities and economies that rely on them. NOAA is instrumental in 
the removal of hundreds of tons of marine debris from our coasts and 
waters every year, restoring the productivity of coastal and marine 
ecosystems. And increasingly, NOAA's program is emphasizing research on 
microplastics in the ocean and their toxicological impacts on marine 
organisms. NOAA's Marine Debris program was originally authorized at a 
level of $10 million. We support funding for this program at $8 
million.
                             marine mammals
    We do not support NOAA's proposed cut of $1.9 million dollars from 
the John H. Prescott Marine Mammal Rescue Assistance Grant Program. 
This cut would harm marine mammal stranding networks, which are the 
first responders for sick or dying marine mammals. Marine mammals face 
significant threats in the Gulf of Mexico, from oil and gas exposure 
with the Galveston Bay Spill providing the latest example, to the 
ongoing unusual mortality event (UME) occurring in the northern Gulf. 
Since February 2010, over 1300 marine mammals have died in the Northern 
Gulf of Mexico which is both three times more animals impacted and 
three times longer in duration than any other UME in the Gulf. Programs 
in Texas and Florida in particular would be harmed by this cut because 
they are not currently benefitting from BP Natural Resource Damage 
Assessment dollars that are temporarily filling funding gaps in 
northern Gulf rescue centers, but not elsewhere.
                    fisheries science and management
    We support funding for programs that implement the Magnuson-Stevens 
Fishery Conservation and Management Act. As we review the Act for 
reauthorization, it is important to note that the Act is working--NOAA 
has made great strides towards ending overfishing and continued 
investments in these programs are needed.

  --Electronic Monitoring and Reporting: $5.596 million increase in 
        Fisheries and Ecosystem Science Programs and Services; $1.45 
        million increase in Fisheries Management Programs and Services

       We support increasing funding for electronic monitoring and 
reporting requested by NOAA. This funding has been requested for 
nationwide efforts, but in the Gulf of Mexico alone, where managers 
need electronic monitoring to keep track of catch and prevent overruns 
in the red snapper fishery, there is significant need for additional 
funding. Based on the findings of the November 2014 ``Technical 
Subcommittee Report to the South Atlantic and Gulf of Mexico Fishery 
Management Councils: Recommendations for Electronic Logbook Reporting'' 
NOAA's requested increases are only a portion of what is needed to 
support effective electronic monitoring. The Gulf of Mexico region 
alone will require more than $5 million annually to support electronic 
monitoring.

  --Expand Annual Stock Assessments: $2.815 million increase in 
        Fisheries Data Collections, Surveys and Assessments

       This funding provides critically needed resources for fisheries 
managers to assess priority fish stocks, implement the requirement for 
annual catch limits (ACLs), and ensure the successful recovery of 
overfished populations. These activities give fishery managers greater 
confidence that their ACLs will avoid overfishing while providing 
optimal fishing opportunities. Because the information provided by 
stock assessments is so vital for sustainable management of U.S. 
fisheries, increased funding for stock assessments should remain among 
the highest priorities in fiscal year 2016.

  --Marine Recreational Information Program

       We also support full funding for Fisheries Data Collections, 
Surveys and Assessments because this funding supports the Marine 
Recreational Information Program. Despite their often sizeable economic 
and biological impacts, much less data are collected from recreational 
saltwater fisheries than commercial fisheries due to the sheer number 
of participants and limited sampling of anglers' catches. The low level 
of data collection and lack of timely reporting of data in these 
fisheries is a large source of uncertainty and has become a flashpoint 
for controversy in regions where catch restrictions have been adopted 
to rebuild overfished stocks, particularly in the Southeast. By all 
accounts, improved sampling and timelier reporting of catch data are 
needed for successful management of marine recreational fisheries.

  --Marine Operations and Maintenance: $178.838 million

       Marine Operations and Maintenance should be funded at or above 
the President's request level of $178.838 million. Days at sea funded 
by this line are functionally tied to fishery stock assessments, and 
the two programs must be viewed together.
                     integrated ocean acidification
    In recent years, scientists have raised the alarm about ocean 
acidification--a process whereby ocean waters' absorption of carbon 
dioxide emissions alters marine acidity. These changes can have far-
reaching consequences for marine life, including economically important 
species like shellfish. For example, the shellfish industry in the 
Pacific Northwest has been devastated in recent years as increasingly 
acidic water impacted oyster hatcheries, nearly wiping out several 
years-worth of oyster ``seed.''
    Given the magnitude of the potential impacts of ocean acidification 
we believe this area warrants the increased research investment 
proposed in the President's fiscal year 2016 request of $30.005 
million. We greatly appreciate last year's appropriation of $8.5 
million for fiscal year 2015, and believe the increase in funding is 
critical to allow NOAA to not only keep existing programs running, and 
continue assessing acidification effects on commercial and recreational 
marine species, but also improve and expand existing regional shared 
ocean acidification experimental facilities, and develop synthesis and 
visualization products responsive to stakeholder needs. By increasing 
the programmatic funding for Integrated Ocean Acidification, NOAA will 
be able to take these concrete actions to more effectively tackle the 
economic and local implications of ocean acidification and prepare for 
future strategies that will protect our Nation's key ocean and coastal 
economies.
                                 ______
                                 
Prepared Statement of the Population Association of America/Association 
                         of Population Centers
    Thank you, Chairman Shelby, Ranking Member Mikulski, and other 
distinguished members of the subcommittee, for this opportunity to 
express support for the Census Bureau, the National Science Foundation 
(NSF), and the Bureau of Economic Analysis (BEA). These agencies are 
important to the Population Association of America (PAA) and 
Association of Population Centers (APC), because they provide direct 
and indirect support to population scientists and the field of 
population, or demographic, research overall. In fiscal year 2016, we 
urge the subcommittee to adopt the following funding recommendations: 
Census Bureau, $1.5 billion, consistent with the administration's 
request; National Science Foundation (NSF), $7.7 billion, consistent 
with the administration's request; and, Bureau of Economic Analysis, 
$110 million, consistent with the administration's request.
    The PAA and APC are two affiliated organizations that together 
represent over 3,000 social and behavioral scientists and almost 40 
population research centers nationwide that conduct research on the 
implications of population change. Our members, which include 
demographers, economists, sociologists, and statisticians, conduct 
scientific research, analyze changing demographic and socio-economic 
trends, develop policy recommendations, and train undergraduate and 
graduate students. Their research expertise covers a wide range of 
issues, including adolescent health and development, aging, health 
disparities, immigration and migration, marriage and divorce, 
education, social networks, housing, retirement, and labor. Population 
scientists compete for funding from the NSF and rely on data produced 
by the Nation's statistical agencies, including the Census Bureau and 
BEA, to conduct research and research training activities.
                           the census bureau
    The Census Bureau is the premier source of data regarding U.S. 
demographic, socio-economic, and housing characteristics. While PAA/APC 
members have diverse research expertise, they share a common need for 
access to accurate, timely data about the Nation's changing socio-
economic and demographic characteristics that only the U.S. Census 
Bureau can provide through its conduct of the decennial census, 
American Community Survey (ACS), and a variety of other surveys and 
programs.
    We recognize that the fiscal year 2016 request is $413 million more 
than the agency's fiscal year 2015 funding level. However, as you know, 
the Census Bureau's budget is cyclical, and fiscal year 2016 is a 
pivotal year in the 2020 Census planning cycle. This fall, after 
completing several years of in-depth research and testing, the Census 
Bureau will announce the design framework for the 2020 Census. The 
design decision is already a year behind schedule, due to past budget 
shortfalls, and the agency must pivot immediately to the systems and 
operations development phase of the census, as it prepares to execute 
that design. In fiscal year 2016, the agency plans to:
  --conduct a Field Operations Test to evaluate new 2020 Census 
        management framework for nonresponse follow-up operations;
  --perform the 2016 Early Operations Test of new, targeted address 
        canvassing methods;
  --evaluate the use of administrative records to remove inaccurate 
        addresses and to enumerate households that do not self-respond;
  --initiate the 2020 Census Communications campaign;
  --hire hundreds of new employees to manage and implement design and 
        development activities and to conduct field tests; and
  --implement a national content test for the ACS to reduce the 
        survey's response burden, improve the usefulness of data 
        products, and streamline field operations.
    These ambitious plans, if supported, would not only enhance the 
conduct and outcome of the 2020 Census, but could also make it more 
cost effective, saving an estimated $5 billion over the lifecycle cost 
of the census. Conversely, without sufficient resources to pursue these 
innovations, the bureau is likely to rely on traditional and far more 
costly census methods-- an outcome that would jeopardize the accuracy 
of the 2020 Census and most certainly preclude the agency from abiding 
by Congress' directive to keep the cost of the next census at the 2010 
level.
    With respect to the ACS, the PAA and APC urge the subcommittee to 
oppose any attempts that may occur during consideration of the fiscal 
year 2016 Commerce, Justice, Science appropriations bill to change the 
mandatory response status of the ACS. In 2003, the Census Bureau 
conducted a test on a voluntary ACS. They found that survey costs 
increased by approximately $60 million ($90 in real dollars) and 
response rates decreased by an estimated 20 percent. Canada's recent 
experience of moving from a mandatory to voluntary long form is a 
cautionary example. The overall response rate dropped from 94 percent 
to under 69 percent, increasing costs by $22 million as Statistics 
Canada increased the sample size to make up for lower response. Despite 
these efforts, Statistics Canada could not produce reliable socio-
economic estimates for 25 percent of all ``places'' in the Nation--
mostly small communities and rural areas. Experts have described the 
data on income as not usable for business and policy purposes. The U.S. 
should heed Canada's example and maintain the integrity of the 
mandatory ACS.
                   national science foundation (nsf)
    The mission of NSF is to promote the progress of science; to 
advance the national health, prosperity, and welfare; and to secure the 
national defense. Understanding the implications of complex population 
dynamics is vital to the agency's mission. The Directorate of Social, 
Behavioral and Economic (SBE) Sciences is the primary source of support 
for the population sciences within the NSF. The Directorate funds 
critical large-scale longitudinal surveys, such as the Panel Study of 
Income Dynamics, that inform pressing policy decisions and enable 
policy makers to make effective decisions. Other projects, such as the 
Social Observatory Coordinating Network, integrate social science and 
health research, linking community and national data to improve 
population health.
    NSF is the funding source for over 20 percent of all federally 
supported basic research conducted by America's colleges and 
universities, including basic behavioral and social research. SBE funds 
more than half of the university-based social and behavioral sciences 
research in the Nation.
    PAA and APC, as members of the Coalition for National Science 
Funding, request that the subcommittee provide the NSF with the 
administration's request, $7.7 billion. This budget will enable the NSF 
SBE Directorate to continue its support of social science surveys and a 
robust portfolio of population research projects. The NSF also 
continues to focus on interdisciplinary research initiatives, 
recognizing that social and behavioral factors are intrinsic to many 
critical areas of research--for example the recent Understanding the 
Brain initiative. Funding at this level will enable NSF to maintain 
funding for the most promising grant applications that promote 
transformational and multidisciplinary research. Steady and sustainable 
real growth will enhance the Nation's capability to make new 
discoveries, leading to new innovations.
                   bureau of economic analysis (bea)
    While a relatively small agency, the BEA is enormously important to 
understanding our multi-trillion dollar economy. A diverse range of 
data users rely on BEA data: Federal, State and local government 
officials use BEA data to inform economic and fiscal policy; businesses 
use BEA data to guide investment decisions; and scientists use BEA data 
to understand and interpret trends in labor, employment, and national 
and international economies. Despite its importance, since fiscal year 
2010, the BEA budget has not kept pace with inflation. The PAA and APC 
join other national organizations to urge the subcommittee to provide 
BEA with $110 million in fiscal year 2016. This funding is necessary to 
both restore the agency's purchasing power and to launch new 
initiatives to improve energy accounting and economic statistics and to 
expand data used to inform trade negotiations and support trade 
promotion efforts.
    Thank you for considering our requests and for supporting Federal 
programs that benefit the population sciences.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect bays and 
estuaries as essential resources for our Nation. Restore America's 
Estuaries is an alliance of community-based coastal conservation 
organizations across the Nation that protect and restore coastal and 
estuarine habitat. Our member organizations include: American Littoral 
Society, Chesapeake Bay Foundation, Coalition to Restore Coastal 
Louisiana, Save the Sound--a program of the Connecticut Fund for the 
Environment, Conservation Law Foundation, Galveston Bay Foundation, 
North Carolina Coastal Federation, EarthCorps, Save The Bay--San 
Francisco, Save the Bay--Narragansett Bay, and Tampa Bay Watch. 
Collectively, we have over 250,000 members nationwide.
    As you craft your fiscal year 2016 Commerce, Justice, Science and 
Related Agencies appropriations bill, Restore America's Estuaries 
encourages you to provide the funding levels below within the 
Department of Commerce, National Oceanic and Atmospheric Administration 
(NOAA) for core programs which greatly support coastal community 
economies:

  --$47 million for Habitat Conservation and Restoration ($62.235 
        million under proposed new structure)

       (CJS: NOAA: ORF: NMFS: Habitat Conservation and Restoration)

  --$50 million for Regional Resilience Grants

       (CJS: NOAA: PAC: NOS: CELCP Acquisition)

  --$23.9 million for National Estuarine Research Reserve System

       (CJS: NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
National Estuarine Research Reserve System)

  --$1.7 million for National Estuarine Research Reserve Construction

       (CJS: NOAA: PAC: NOS: NERRS Construction)

    These investments strengthen and revitalize America's communities 
by buffering against storms, supporting commercial fisheries, 
preventing erosion, protecting vital infrastructure, eliminating public 
safety hazards, and providing new recreational opportunities.
               noaa habitat conservation and restoration
    NOAA's Office of Habitat Conservation (OHC) protects, restores, and 
promotes stewardship of coastal and marine habitat to support our 
Nation's fisheries and improve the resiliency of coastal communities 
through financial support and a range of restoration expertise and 
services. Within funds provided, we ask that the subcommittee provide 
no less than $26 million for Community-based Restoration, Resiliency 
Grants, and Estuary Restoration Program.
    Funding for the Office of Habitat Conservation through the Habitat 
Conservation and Restoration PPA supports both the Community-based 
Restoration Program, Estuary Restoration Program and staff capacity to 
efficiently execute and facilitate habitat restoration nationwide. 
Activities range from planning and implementation activities for 
Natural Resource Damage Assessment (NRDA) and Restoration Trustee 
responsibilities for all active cases (e.g. Deepwater Horizon oil 
spill) to expert restoration services across NOAA programs including 
the Coastal Wetlands Planning Protection and Restoration Act (CWPPRA), 
the Great Lakes Restoration Initiative (GLRI), and the National Fish 
Habitat Action Plan and the National Fish Habitat Partnership (NFHP). 
Focusing NOAA's restoration capacity within the OHC Restoration Center 
allows NOAA to efficiently execute and facilitate habitat restoration 
nationwide.
    We urge the subcommittee to leverage the existing staff capacity 
and restoration expertise within the Restoration Center and support 
efforts to elevate NOAA's Community-based Restoration Program. This 
program supports locally driven and voluntary coastal restoration 
projects with national, regional, and local organizations through 
competitively awarded public-private partnerships. This non-regulatory 
tool is unique within NOAA because of its ability to provide seed 
funding for community-driven and innovative restoration. CBRP 
complements traditional fishery management and leverages non-Federal 
resources 3-5 times the Federal investment. Projects result in 
healthier habitats, which strengthen our commercial and recreational 
fisheries.
    Restore America's Estuaries appreciates the subcommittee's past 
support for the Community-based Restoration Program and the inclusion 
of report language directing NOAA to ensure restoration funds achieve 
multiple benefits, including but not limited to fisheries.
    The Estuary Restoration Program was transferred from the National 
Ocean Service to the National Marine Fisheries Service under the 
Habitat Conservation and Restoration PPA without additional funding in 
the fiscal year 2014 omnibus appropriations. The Estuary Restoration 
Act established a comprehensive interagency organization, the Estuary 
Habitat Restoration Council, which is comprised of five key Federal 
restoration agencies and leads a coordinated approach to enhance 
estuary habitat restoration. Under the Act, NOAA is responsible for 
maintaining the National Estuaries Restoration Inventory (NERI). Modest 
funding is necessary for maintaining/updating NERI and to ensure cross-
agency collaboration continues. Restore America's Estuaries urges your 
continued support of the Estuary Restoration Council and NOAA's Estuary 
Restoration Program.
    We strongly urge the subcommittee to provide no less than $47 
million for Habitat Conservation and Restoration, which maintains the 
fiscal year 2015 enacted level. Within funds provided, no less than $26 
million should be for the Community-based Restoration Program, 
Resiliency Grants, and Estuary Restoration Program. To adopt the 
administration's proposed changes to the Habitat Conservation and 
Restoration PPA and maintain level external restoration funding, the 
subcommittee must provide no less than $62.235 million if the proposed 
new structure is adopted. Restore America's Estuaries strongly supports 
the inclusion of the following:

        Report Language: Within funds provided, NOAA shall maximize 
        external funding for public-private partnerships. NOAA shall 
        issue a revised call for partnership proposals that prioritize 
        direct community involvement and stewardship of local projects 
        that support a range of benefits to coastal watershed 
        communities. The subcommittee encourages NOAA to prioritize 
        projects with diversity of support, but not to require the 
        support of a coastal State's governor due to the burden this 
        places on smaller organizations.

NOAA, REGIONAL COASTAL RESILIENCE GRANTS
(CJS: NOAA: ORF: NOS: Regional Coastal Resilience Grants)

    Restore America's Estuaries commends the administration's request 
for $50 million for the Regional Coastal Resilience Grant Program to 
more fully address a suite of resilience challenges facing all U.S. 
coastal regions--including community, ecosystem, and economic 
resilience--within a single, competitive grants program. Restore 
America's Estuaries encourages the subcommittee to look at the 
Community-based Restoration Program and the NOAA Restoration Center as 
models for scaling ecosystem restoration efforts that increase 
resilience. NOAA estimates 2,000 acres of habitat restored per $5 
million invested in ecosystem resilience grants.
    Previous proposals have included language suggesting that project 
sponsors secure the support of the coastal State's Governor. We 
encourage the subcommittee to reconsider the requirement of securing 
support of the State's Governor due to the difficulty and burden this 
places on smaller organizations like local nonprofits. Specifically we 
are concerned this could disadvantage some community-driven projects if 
they do not have access to the State's Governor, especially in medium 
to large States.
    Restore America's Estuaries urges Congress to fund the Regional 
Coastal Resilience Grant Program at $50 million. We urge the 
subcommittee to ensure that NOS coordinates closely with the 
Restoration Center to increase efficiency and leverage capacity to help 
meet shared goals.

NOAA, NATIONAL ESTUARINE RESEARCH RESERVE SYSTEM
(CJS: NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
        National Estuarine Research Reserve System)/(CJS: NOAA: PAC: 
        NOS: NERRS Construction)

    The National Estuarine Research Reserve System (NERRS) is comprised 
of 28 protected reserves that support long-term research, education, 
training, and monitoring. Through an effective partnership between NOAA 
and coastal States, NERRS plays a critical role in sustaining resilient 
coasts and coastal communities.
    The States have been entrusted to operate and manage NOAA's program 
in 22 States and Puerto Rico, where over 1.3 million acres of land and 
water are protected in perpetuity.
    Restore America's Estuaries respectfully requests $23.9 million for 
NERRS operations in fiscal year 2016. At this funding level, the 28 
existing reserves will maintain level funding and support will be 
provided for the addition of the 29th reserve in Hawaii. The 
designation of a Hawaii NERR will fill an unrepresented bio-geographic 
region in the NERR system.
    NERRS assists our coastal communities, industries and resource 
managers to enhance coastal resiliency in a changing environment. As 
severe weather events become more common, Federal, State, and local 
officials are recognizing that estuaries have the capacity to provide 
green resilience infrastructure. Through NERRS, NOAA can tailor science 
and management practices to enable local planners to use estuarine 
habitat as a tool for resilience and adaptation.
    Through scientific research and science-based management of more 
than 1.3 million acres of protected land, NERRS provides numerous 
benefits to communities that result in improved water quality, 
increased upland flood and erosion control, and improved habitat 
quality that support local fisheries and provide storm protection to 
coastal communities.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs help to accomplish on-the-ground restoration work which 
results in major benefits:
  --Jobs.--Coastal habitat restoration projects create between 17-33 
        jobs per $1 million invested. That's more than twice as many 
        jobs as the oil and gas sector and road construction industries 
        combined.
  --More fish.--Traditional fisheries management tools alone are 
        inadequate. Fish need healthy and abundant habitat for 
        sustainable commercial and recreational fisheries.
  --Resiliency.--Restoring coastal wetlands can help knock down storm 
        waves and reduce devastating storm surges before they reach the 
        people and property along the shore.
  --Leverage.--Community-based restoration projects leverage 3-5 times 
        the Federal investment through private matching funds, 
        amplifying the Federal investment and impact.
    Thank you for taking our requests into consideration as you move 
forward in the fiscal year 2016 appropriations process. We stand ready 
to work with you and your staff to ensure the health of our Nation's 
estuaries and coasts.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    On behalf of the 33 Sea Grant programs in every coastal and Great 
Lake State, plus Puerto Rico and Guam, the Sea Grant Association (SGA) 
expresses its gratitude to the subcommittee for strong and consistent 
support it has provided year in and year out for the National Sea Grant 
College Program (Sea Grant). As the subcommittee works to develop an 
fiscal year 2016 appropriations bill the SGA urges the subcommittee to 
take full advantage of the Sea Grant program's strengths in research, 
extension, outreach, and education--particularly in the area of coastal 
community resiliency--by fully funding the program at a level of $80 
million and rejecting the administration's proposal to terminate STEM 
education in the Sea Grant program.
    Sea Grant is NOAA's Federal-State partnership program that supports 
science-based, environmentally sustainable practices to ensure our 
coastal communities remain engines of economic growth in a rapidly 
changing world. For example, over the next century, sea level rise in 
the Los Angeles region is expected to match global projections with an 
increase of 0.1-0.6 meters from 2000 to 2050. California Sea Grant 
developed and released the first study of what this will mean to one of 
America's largest cities and spurred creation of a regional planning 
process to protect the city from the consequences.
    Meanwhile Sea Grant researchers in Hawaii are providing improved 
projections of how ocean acidification is likely to impact Hawaiian 
coral reefs and examining the potential for corals to adapt or 
acclimatize to future conditions. Hawaiian coral reefs are valued at 
over $33 billion annually to the American public, and every year Hawaii 
derives an estimated $364 million directly from coral reefs in addition 
to other benefits, such as shoreline protection.
    Georgia Sea Grant is working with the Georgia Department of Natural 
Resources to develop a detailed climate adaptation plan for the barrier 
island community of Tybee Island, Georgia. The plan, based on specific 
adaptation scenarios, visualizes impacts from storm surges and coastal 
flooding. The City of Tybee Island has formally agreed to consider 
adopting the recommendations developed by this project through 
appropriate local ordinances, infrastructural improvements, and other 
municipal actions.
    Additionally, when Hurricane Sandy hit, large sections of Jersey 
City, a hospital and City Hall had to be evacuated because of flooding. 
New Jersey Sea Grant experts put satellite data and imagery to work and 
engaged with city planners to design a resiliency plan that adapts the 
area's coastlines to mitigate and prevent similar disasters in future 
storms.
    These are a just a few of the many examples of Sea Grant's work 
across the Nation to help Americans who live, work and recreate on our 
shores to be safe, prosperous and resilient in the face a multitude of 
challenges.
    For the United States to be more responsive to the economic 
development potential of its coastal resources, improve coastal 
resilience, and balance the environmental challenges its coastal 
communities face, the Sea Grant Association is requesting Federal 
funding of $80 million in fiscal year 2016 for the research, education, 
and extension activities that make up the National Sea Grant College 
Program. This recommended funding level includes $10 million for an 
enhanced Sea Grant resiliency initiative that is consistent with NOAA's 
strategic priorities. The level of funding for the Sea Grant program is 
consistent with guidance provided in a prior report from the 
Subcommittee on Appropriations regarding strengthening the program and 
with pending authorization legislation.
What is the importance of the Nation's coastal communities?
    Nearly 130 million residents or 40 percent of the population of the 
United States live in counties immediately on our coastlines. Those 
coastal counties support 51 million jobs, and over 45 percent of the 
gross domestic product ($7 trillion dollars) of our Nation. Yet these 
same counties are highly vulnerable to challenges associated with 
natural and man-made disasters, changes in the natural resource base 
and ecosystem, and economic hard times, as we recently have seen with 
the devastating impacts of Hurricane Sandy in the northeast, the 
impacts of the BP oil spill in the Gulf of Mexico, depletion of 
fisheries stocks around the Nation, and growing strain on coastal 
infrastructure from sea level change. The resilience of our coastal 
communities, their economies and quality of life of their residents 
depends on how well prepared they are for these events. This includes 
how residents are able to prepare as well as where and how critical 
infrastructure and buildings are constructed in the coastal zone. 
Resilient communities have prepared residents, businesses and 
infrastructure that reduce the impacts of a myriad of risks to their 
lives and property and allow life to return to normal much more quickly 
than in communities that are not as prepared. They also have living 
coastal resources such as mangroves, oyster reefs, healthy barrier 
dunes and salt marshes that buffer waves and protect the shoreline from 
erosion during storms. Only through knowledge, understanding and 
preparation will coastal communities be able to prepare for and respond 
to the hazards that are uniquely concentrated in these coastal 
counties.
How has the National Sea Grant College Program contributed to the 
        economic health of the Nation's coastal communities in the 
        past?
    In 2014, the Sea Grant program delivered the following benefits to 
the Nation as a result of its activities:
  --$450 million in economic development;
  --6,500 businesses created or retained;
  --17,500 jobs created or retained;
  --290,000 volunteer hours for outreach;
  --760 undergraduate students supported;
  --980 graduate students supported;
  --53,000 stakeholders modify practices based on information and 
        technical assistance provided by Sea Grant;
  --220 communities implement new sustainable practices; and
  --21,700 acres of ecosystems restored.
What will the additional $10 million Sea Grant Community Resilience 
        initiative accomplish?
    Sea Grant has developed signature programs that have helped coastal 
communities across the Nation understand their risks, and respond to 
unexpected changes that affect their livelihoods. Sea Grant has 
developed locally relevant solutions that will increase community 
resilience. In some areas of the country, Sea Grant has implemented 
community resilience programs at a regional level, such as in the Gulf 
of Mexico, the Northeast and the Great Lakes.
    In other areas, programs have been developed at the State level, 
that have great potential to be rolled out nation-wide, yet this has 
not been fully realized due to a lack of resources. With the resources 
requested Sea Grant can:
  --Invest in research and unlock data and information to better 
        understand the projected impacts of severe weather and other 
        ecosystem changes and how we can better prepare our communities 
        and infrastructure;
  --Help communities plan and prepare for the impacts of severe weather 
        and encourage locally relevant measures that reduce future 
        risks;
  --Work with communities that have experienced unexpected events that 
        have impacted their economy with programs such as job 
        retraining or helping to develop new commercial infrastructure; 
        and
  --Support science and engineering research that produces breakthrough 
        technologies that increase the resilience of infrastructure to 
        coastal hazards.
What is Sea Grant's role in STEM Education?
    Sea Grant program provides an important mechanism that delivers 
high quality, stimulating STEM education to students using the oceans 
and coasts or the Great Lakes, as the vehicle for conveying important 
scientific and natural resource concepts. The support that Sea Grant 
provides is an important catalyst and helps create important 
educational partnerships in coastal communities. STEM education is 
mandated in the legislation Congress passed when it created Sea Grant 
and that mandate has been reaffirmed through subsequent funding 
legislation.
    SGA recognizes that the Nation is facing very tight fiscal 
constraints and suggests that where we have discretion, Federal funding 
ought to go to those programs that deliver economic, environmental, and 
education benefits to our citizens. The Sea Grant education programs do 
just that in a very cost effective manner. For that reason and because 
of the importance of the National Sea Grant College Program STEM 
education, and the role that it plays in the long term health of our 
State, we urge the subcommittee to continue to strongly oppose the 
elimination of Sea Grant STEM activities in the fiscal year 2016 
Commerce, Justice and Science appropriations bill.
How does the Sea Grant program make a difference?
    Approximately 95 percent of the Federal funding provided to Sea 
Grant leaves Washington and goes to the State programs where it is used 
to conduct research, carry out extension and outreach activities, and 
deliver valuable services to the Nation. Moreover, Federal funding 
through the Sea Grant program has a significant leveraging impact with 
every two Federal dollars invested attracting at least an additional 
dollar in non-Federal resources in mandatory matching funding. The 
National Sea Grant College Program is one of the very few nationally 
competitive grant programs that can demonstrate this kind of real 
impact at the local, State, and national levels.
    Since its creation in 1966, the National Sea Grant College Program 
has been at the forefront of addressing economic opportunities and 
environmental issues facing coastal communities through its research 
and outreach efforts. Sea Grant is user-driven and university-based, 
and it is fully and actively engaged with regional, State, and local 
organizations. Sea Grant helps America use its coastal resources wisely 
in order to sustain the health and productivity of coastal communities.
    With the $80 million in Federal funding, Sea Grant will leverage an 
additional $40 million to $80 million in State and local support, 
continue to increase the economic development and resiliency of our 
coastal communities, contribute to STEM education in our communities, 
and help sustain the health and productivity of the ecosystems on which 
they depend. The Sea Grant Association is grateful to the subcommittee 
for the opportunity to provide this information.
                                 ______
                                 
   Prepared Statement of Syracuse University, Department of Chemistry
    I am writing to you to with the strongest possible support for the 
National Institute of Standards and Technology (NIST) center for 
Neutron Research (NCNR). The NCNR serves a key role in the education of 
chemistry, physics, materials science and engineering graduate students 
in a field that is crucial to materials science and engineering. This 
increasingly includes biomedical areas. There is a chronic shortage of 
expertise in the area of neutron science in the United States due to 
very long term lack of major funding dating back to at least the 
1970's. The recent successful completion of the Spallation Neutron 
Source (SNS) at Oak Ridge National Laboratory (ORNL) goes a long way to 
providing a neutron facility that restores the United States to the 
first place in facility capability , superseding the ISIS facility in 
the U.K. A visit to SNS and a tour of the facility floor would 
immediately show that it is highly populated by persons from Europe. 
Europe has long held the premier position in this field and will regain 
this again with completion of the European Spallation Source (ESS) 
which is under construction in southwestern Sweden (http://
europeanspallationsource.se/ess-and-skanska-sign-contract-first-phase-
construction).
    The NCNR has a wide variety of instrument types (http://
www.ncnr.nist.gov/instruments/) providing leadership in novel 
instrument design and a very broad range of applications. The location 
of the NCNR in a major metropolitan area with ease of access from a 
large population center makes it an obvious choice for educational 
projects. I have had personal experience with this educational aspect 
of neutron research over a 15 year period. Over this period I was 
involved in dozens of trips with students, including graduate and 
undergraduate students from Syracuse University and others involved in 
summer undergraduate research. Many of these students now work in the 
neutron field. One of the undergraduates from SUNY Oswego switched his 
major to nuclear engineering and is now employed in that field. The 
broad range of instruments at NCNR provides an educational experience 
that is unique in terms of its broadening of a student's background 
beyond the text books into many fields.
    Neutrons provide a view of materials at the atomic level that is 
not possible with electromagnetic radiation. This due to several 
factors including the ability of neutrons to penetrate optically opaque 
materials, the strong variation of neutron scattering with nuclear 
isotope (H is different from D) and the fact that neutrons with thermal 
energy, and thus by definition with energy corresponding to molecular 
excitations, have wavelengths that are comparable to molecular sizes. 
This makes neutrons broadly applicable throughout engineering, 
manufacturing and medicine as well as basic materials science. Closure 
of NCNR at NIST could very well result in European dominance of this 
field in the very near future due to lack of a trained work force and 
thus threaten our economic independence.

            Sincerely,
                                   Bruce S. Hudson,
                 Professor, Chemistry, Syracuse University.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Mr. Chairman, and honorable members of the subcommittee, I am W. 
Ron Allen, the tribal commissioner and chair for the U.S. Section of 
the Pacific Salmon Commission (PSC). I am also tribal chairman/CEO of 
the Jamestown S'Klallam Tribe located on the northern Olympic Peninsula 
of Washington State in Sequim. The U.S .Section prepares an annual 
budget for implementation of the Pacific Salmon Treaty.
    Department of Commerce funding in support of implementing the 
Pacific Salmon Treaty is part of the Salmon Management Activities 
account in the National Marine Fisheries Service (NMFS) budget. Funding 
in the Department of Commerce budget are intended for the programs to 
fulfill national commitments created by the treaty was $11,181,426 in 
the 2014 budget. The U.S. Section estimates that a budget of 
$14,100,000 for fiscal year 2016 is needed to fully implement national 
commitments created by the treaty.
    The implementation of the treaty is funded through the Departments 
of Commerce, Interior and State. The Department of Commerce principally 
funds programs conducted by the States of Washington, Oregon, Idaho and 
Alaska and the National Marine Fisheries Service. The costs of the 
programs conducted by the States to fulfill national commitments 
created by the treaty are substantially greater than the funding 
provided in the NMFS budget in past years. Consequently the States have 
supplemented the Federal treaty appropriations from other sources 
including State general funds.
    The Pacific Salmon Treaty line Item of the National Marine 
Fisheries Service budget funded at $4,683,065 for fiscal year 2014 
provides base support for the States of Alaska, Washington, Oregon, and 
Idaho and the National Marine Fisheries Service to conduct the salmon 
stock assessment and fishery management programs required to implement 
the treaty's conservation and allocation provisions for coho, sockeye, 
Chinook, chum, and pink salmon fisheries. Effective, science-based 
implementation of negotiated salmon fishing arrangements and abundance-
based management approaches for Chinook, southern coho, Northern 
Boundary and Transboundary River salmon fisheries includes efforts such 
as increased annual tagging and tag recovery operations, harvest 
monitoring, genetic stock identification and other emerging stock 
identification techniques. The U.S. Section identified a need of 
$8,864,303 for fiscal year 2016 to fully carry out these activities.
    The Chinook Salmon Agreement line item in Salmon Management 
Activities funded at $1,601,697 in fiscal year 2014 represents a 
reduction of $235,000 for previous levels. This funding supports 
research and stock assessment necessary to acquire and analyze the 
technical information needed to fully implement the abundance-based 
Chinook salmon management program provided for by the treaty. The 
States of Alaska, Washington, Oregon, and Idaho, and the 24 treaty 
tribes conduct projects selected in a rigorous competitive process.
    The International Fisheries Commissions line, under Regional 
Councils and Fisheries Commissions in the NMFS budget funded at 
$358,879 and provides the U.S. contribution to bilateral cooperative 
salmon enhancement on the transboundary river systems which rise in 
Canada and flow to the sea through Southeast Alaska. This project was 
established in 1988 to meet U.S. obligations specified in the treaty 
and had been previously funded at $400,000 annually.
    The 2008 Agreement line supports programs for coded wire tag 
improvements and Puget Sound critical chinook stocks necessary to reach 
the agreement on revised fishery provisions between the U.S. and 
Canada. The level of funding needed for 2008 Agreement programs was 
$3,000,000 and the amount appropriated for fiscal year 2014 was 
$2,828,646. The U.S. Commissioners view continued funding of these 
programs in the fiscal year 2016 Federal budget as necessary to address 
Chinook salmon conservation needs and to meet existing treaty 
commitments.
    The core treaty implementation projects included in the Pacific 
Salmon Treaty line, and the U.S. Chinook Agreement line under Salmon 
Management Activities as well as the International Fisheries Commission 
line under Regional Councils and Fisheries Commissions consist of a 
wide range of stock assessment, fishery monitoring, and technical 
support activities for all five species of Pacific salmon in the 
fisheries and rivers between Cape Suckling in Alaska to Cape Falcon in 
Oregon. The States of Alaska, Washington, Oregon, Idaho, and the 
National Marine Fisheries Service (NMFS) conduct a wide range of 
programs for salmon stock abundance assessment, escapement enumeration, 
stock distribution, and fishery catch and effort information. The 
information is used to establish fishing seasons, harvest levels, and 
accountability to the provisions of treaty fishing regimes.
    Like many other programs, funding to implement the Pacific Salmon 
Treaty decreased in recent years. Prior to that, the base annual treaty 
implementation funding remained essentially flat since the inception of 
the treaty in 1985. In order to continue to fulfill the Federal 
commitments created by the treaty, as costs and complexity increased 
over time, the States had to augment Federal funding with other Federal 
and State resources. However, alternative sources of funding have seen 
reductions or in some cases have been eliminated.
    In addition to the recent budget reductions due to sequestration, 
NOAA changed the way administrative fees applied to the funding to 
implement the Pacific Salmon Treaty. Last year NOAA decided to apply an 
administrative fee to the treaty funding, after years of not charging 
administrative fees to this account. Administrative fees are applied at 
Commerce headquarters, National Marine Fisheries headquarters and at 
the regional levels. The result is less funding available for the 
activities to implement the treaty. While the U.S. Section understands 
the need for offices in the Department of Commerce to have appropriate 
funding for administrative activities, the change in the way 
administrative fees are applied compromises the efforts to successfully 
implement the treaty.
    The provisions of five annex chapters to the treaty expire on 
December 31, 2018. These chapters contain the specifics for 
implementing the treaty for each species in each geographic area. The 
renegotiation for revised annex chapters is underway. In order to 
ensure that the renegotiations are successfully completed, the programs 
in the National Marine Fisheries Service contained within the Salmon 
Management Activities account must be adequately funded. The 
consequences of not successfully completing the renegotiations will be 
increased to the health of the fish populations and the fisheries that 
depend on them.
    This concludes the statement of the U.S. Section of the Pacific 
Salmon Commission submitted for consideration by your committee. We 
wish to thank the subcommittee for the support given us to us in the 
past. Please let us know if we can supply additional information or 
respond to any questions the subcommittee members may have.
    Thank you.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I am pleased to submit this testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, Science and Related 
Agencies. UCAR is a consortium of over 100 research institutions, 
including 77 doctoral degree granting universities, which manages and 
operates the National Center for Atmospheric Research (NCAR) on behalf 
of the National Science Foundation (NSF).
    I urge the subcommittee to provide the maximum amount of support 
possible for the vital research and education programs administered by 
the NSF, the National Aeronautics and Space Administration (NASA), and 
the National Oceanic and Atmospheric Administration (NOAA) in fiscal 
year 2016. These essential research agencies fund atmospheric and 
fundamental science in hundreds of universities across the country, 
benefitting from the knowledge, expertise and innovation of our 
academic institutions. UCAR is proud to collaborate with and enhance 
the capabilities of this unparalleled American resource and it is our 
honor to be able to draw attention to the excellent atmospheric 
research that is done on campuses across the United States.
    UCAR has worked tirelessly to elevate the understanding of, and 
support for, the atmospheric sciences nationwide. The atmospheric 
science departments at our 105 member institutions are drivers of 
innovation and the fundamental scientific research that has pushed our 
understanding of weather, climate, space weather, atmosphere, and their 
interplay, into exciting and groundbreaking new areas. These advances 
have improved our ability to predict and understand some of the most 
dangerous phenomena that occur on our planet every day. Protection of 
life and property are the central drivers of this scientific innovation 
and discovery. However, more broadly, these innovations play a 
significant role in protecting our national security, our homeland, our 
businesses, our infrastructure and most importantly, our families and 
communities. As demand for information, prediction, and mitigation 
increase nationally and across the globe, it is the collaborative and 
exhaustive research being conducted in our universities and research 
laboratories that will answer this call and make our families, 
communities, businesses, and infrastructure better equipped and 
prepared to meet the challenges and dangers of living inside Earth's 
dynamic atmosphere.
    The challenges we face as we attempt to better understand our 
planet could not be faced without the strong support of the U.S. 
Congress, in particular this subcommittee, and the critical research 
agencies you fund each year. The economic impact of any single 
investigator's research is often difficult to quantify, however we know 
that investments in research and development (R&D) taken as a whole 
have an extremely high rate of return on investment. Economists 
studying the link between science funding and economic growth have 
found that innovation through R&D is the primary driver of growth over 
the long run. Nobel Prize winning MIT economist Robert Solow famously 
found that over half of increases in economic productivity can be 
attributed to new innovations and technologies. Another similar study 
that attempted to quantify the impact of R&D on economic growth found 
that increases in the level of research intensity in the United States 
and four other developed countries may have accounted for close to 50 
percent of U.S. economic growth between 1950 and 1993.
    The return on investments in the atmospheric sciences exemplifies 
how Federal R&D drives economic growth. The commercial weather industry 
leverages U.S. investments in weather observation, atmospheric 
research, and computer modeling to produce tailored products for a wide 
variety of clients, including the general public. There are now more 
than 350 commercial weather companies in the United States, generating 
nearly $3 billion in annual revenues. The growth rate of this industry 
is estimated to be about 10 percent per year. The vast majority of 
these innovations and technological advances are products of our 
academic institutions. Researchers, graduate students, and 
investigators at our universities are an astounding and innovative 
resource that, in light of the linkage between innovation and our 
economy, should be seen for what they are--our most valuable national 
asset. Across the country there is groundbreaking atmospheric science 
being done that will power our economy, save lives, protect our 
citizens, and impact every single American in a profound way.
    Innovations don't occur in a vacuum and the U.S. Congress has long 
recognized and supported the symbiotic and intertwined relationship 
between the academic, public, and private sectors with respect to 
research that drives advancement. Progress made in the atmospheric 
sciences is a reflection of this beneficial relationship and our 
Federal investments. UCAR actively facilitates and initiates 
partnerships between these sectors. For example, the development of new 
weather satellite technology in the COSMIC program. COSMIC is 
collaboration between UCAR, NASA, NSF, the U.S. Air Force (USAF), and 
the Government of Taiwan. COSMIC's micro satellites harness existing 
GPS satellite assets to provide atmospheric readings at a fraction of 
the cost of the much larger weather satellite programs, while providing 
greater resolution for our weather prediction models. This data can 
mitigate any potential weather data gap and will feed the current and 
future forecast models while greatly improving our ability to predict 
severe weather and track hurricanes. The research underpinning these 
advancements was done at Utah State University.
    Multipurpose Phase Array Radar (MPAR) is the future of ground based 
aviation radar and has very promising weather radar applications. MPAR 
will advance our real-time radar imagery and forecast ability well 
beyond the current Doppler radar platforms that we rely on every day. 
MPAR is being developed and tested for this application at NOAA's 
National Weather Radar Testbed (NWRT) based at the University of 
Oklahoma. This collaborative effort also involves the Massachusetts 
Institute of Technology (MIT) Lincoln Lab, the Federal Aviation 
Administration (FAA), and NOAA. Additional collaborations between the 
Georgia Institute of Technology and FAA will help to rapidly advance 
these applications, allowing for improved sever weather forecasting, 
including advances in tornado prediction and warning systems, which 
will save lives immediately.
    Researchers at Rice University using a computer code, known as the 
Rice Convection Model, successfully simulated an important class of 
aurora called ``growth phase arcs,'' which occur when solar wind 
interacts with the Earth's magnetosphere. Understanding the dynamics of 
Sun-Earth interactions are important aspects for improving our ability 
to comprehend and predict effects of space weather on Earth. These 
aurora events have enormous potential economic and national security 
impacts as they have the potential to destroy electrical grids, 
satellites, and the complex electrical and communications systems that 
we rely on in nearly every aspect of our lives.
    It has been shown that weather variability can cost the United 
States as much as 3 percent of our annual GDP, and risks lives both in 
the United States and globally. At Texas A&M, atmospheric scientists 
are expanding our understanding of how past climate regimes influenced 
weather. This knowledge will allow decision makers and emergency 
managers to be better prepared for and therefore potentially mitigate 
some of the risk and costs of extreme events. Another atmospheric 
scientist at Texas A&M, is using computer models to study how 
hurricanes behave in different climate conditions. This work will 
improve predictions about hurricane season strength and storm numbers. 
A Texas A&M professor and his research group are also working with 
scientists at the Naval Research Lab (NRL) to improve weather 
forecasting models by developing techniques that make better use of 
atmospheric observations, ultimately improving the forecasts our 
citizens, businesses, and military personnel rely on every day.
    Researchers associated with the National Drought Mitigation Center 
(NDMC), located at the University of Nebraska, Lincoln, are leading a 
4-year NASA-funded project to develop the Quick Drought Response Index, 
or ``QuickDRI.'' QuickDRI compliments the currently operational 
``VegDRI,'' which detects drought's effects on vegetation at time 
intervals of a month or less. The two programs will be used by the 
agriculture industry and farmers as tools to detect fast-onset or 
``flash'' drought. This collaboration includes input and support from 
the University of Maryland, the U.S. Department of Agriculture, the 
U.S. Geological Survey (USGS), the High Plains Regional Climate Center 
(HPRCC), and NASA's Goddard Space Flight Center. These models will 
cover the entire mainland U.S. and be a valuable tool in future drought 
prediction and mitigation.
    The NCAR-Wyoming Supercomputing Center (NWSC) provides advanced 
computing services to scientists studying a broad range of disciplines, 
including weather, climate, oceanography, air pollution, space weather, 
computational science, energy production, and carbon sequestration. The 
supercomputer is a national resource located in Cheyenne, Wyoming. 
Using this tool, University of Wyoming (UW) researchers are working on 
a NSF funded project in collaboration with Brigham Young University, 
Utah University, and Utah State University that is producing a 
comprehensive model of the upper Colorado River Basin. This model will 
be 100 times higher resolution than is currently available and it will 
play a vital role in policy and management decisions regarding the 
basin's water--water that supports over 30 million people in North 
America.
    The NWSC is also used by UW researchers in a Department of Energy 
(DOE) funded project that is creating a computational platform to 
simulate (including effects of complex terrain) an entire windfarm 
installation of 100 turbines or more. This model will to improve wind 
farm siting decisions and wind turbine designs. With NASA support, UW 
is also developing algorithms, which incorporate geographic and weather 
profiles, to more efficiently design wind turbines and arrays. These 
technologies will maximize design efficiency and allow private power 
companies and their consumers to reap the cost savings from cheaper 
energy production.
    Scientists from Scripps Institution of Oceanography at UC San 
Diego, NOAA, DOE, NASA, the California Department of Water Resources 
and other agencies are studying the phenomena of ``atmospheric 
rivers.'' These ``rivers'' of clouds flow through the sky and can 
contain water vapor in excess of 10 times the flow of the lower 
Mississippi River. Researchers are trying to better understand the role 
atmospheric rivers play in drought ending precipitation events and how 
the composition of aerosols, which can be natural or man-made, 
influence the amount of rain and snow that these clouds release. This 
research will lead to improved forecasting that can help water managers 
in California and other drought afflicted States plan for precipitation 
events that can cause damaging floods and potentially refill 
reservoirs.
    The University of Alabama, Huntsville (UAH) and the NASA Marshall 
Space Flight Center (MSFC) have entered into a partnership to form the 
Global Hydrology and Climate Center (GHCC). The GHCC ``Lightning Team'' 
has been investigating the causes and effects of lightning as well as 
analyzing a wide variety of atmospheric measurements related to 
thunderstorms. The primary objective of this research group is to 
determine the relationship between the electrical characteristics of 
storms and precipitation, convection, and severe weather. In order to 
achieve this objective, the GHCC Lightning Team has designed, 
constructed and deployed numerous types of ground based, airborne, and 
space based sensors used to detect lightning and characterize the 
electrical behavior of thunderstorms. Understanding of the science that 
occurs in thunderstorms and lightning storms will improve our ability 
to predict, prepare for, and perhaps prevent the causes of lightning 
strikes; potentially saving lives and protecting property.
    Members of the subcommittee I offer these examples not only to 
highlight the extraordinary work done by UCAR's member institutions but 
also to illustrate the fundamental role that this subcommittee plays in 
providing the resources that enable our most valuable national asset, 
our university researchers, to answer our most pressing and important 
questions. As Edward Teller, American physicist and member of the 
Manhattan Project said, ``The science of today is the technology of 
tomorrow.'' With this in mind, I again urge you on behalf of our member 
universities, scientists, students, and all those that rely on the 
products and ideas born from the investments that this subcommittee 
makes in our scientific communities, to continue to recognize the value 
and return on investment that scientific R&D has provided, and will 
continue to provide, this great country.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
